<html>
<title> - TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Susan M. Collins, chairman of the 
subcommittee, presiding.
    Present: Senators Collins, Blunt, Capito, Daines, Reed, 
Schatz, and Murphy.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                        Office of the Secretary

STATEMENT OF THE HONORABLE DR. BEN CARSON, SECRETARY


             opening statement of senator susan m. collins


    Senator Collins. The subcommittee will come to order. Good 
afternoon. Today I am pleased to welcome the Secretary of 
Housing and Urban Development, Dr. Ben Carson, to review the 
Department's fiscal year 2019 budget request. I am also very 
pleased to be joined once again by my friend and our ranking 
member, Senator Jack Reed.
    In prior years, this subcommittee has faced the threat of 
sequestration looming over our deliberations. Fortunately, the 
budget agreement reached in February established new budget 
caps for fiscal year 2018 and 2019 that will enable us to 
continue to make investments in housing and community 
development programs that are critical to millions of 
vulnerable Americans.
    The recently enacted fiscal year 2018 omnibus provided 
$52.7 billion for HUD, which is $4.7 billion above the fiscal 
year 2017 level. Increased funding will support critical 
infrastructure investments in communities through the HOME 
Community Development Block Grant and public housing programs. 
It also funds rental assistance for low-income families and 
seniors who would be at risk of homelessness without these 
programs.
    The Administration's budget request for HUD is $41.2 
billion, a reduction of $11.5 billion and nearly 22 percent 
below this year's enacted level. It includes several proposals 
that were rejected as part of the fiscal year 2018 
deliberations, and I anticipate that many of these same program 
eliminations will once again be rejected.
    The request reflects a significant divestment, and in some 
cases abdication, of the Federal role in housing and community 
development. The request assumes that State and local 
governments have the ability to make up for the loss of Federal 
resources, but fails to identify just how this would be 
possible. Similarly, while I'm a strong advocate for public-
private partnerships, which are also part of the Secretary's 
agenda, these partnerships do require public investments, which 
often are not included in the budget request.
    Two of the programs that the administration has once again 
requested the elimination of are the CDBG and HOME programs. 
They are specifically designed to leverage funds to advance 
locally driven priorities. CDBG provides flexible funding to 
States and localities for critical water and sewer 
improvements, public services for the elderly, job training 
programs, and countless other worthwhile projects that serve 
low- and moderate-income communities. This program has been 
remarkably effective over the years because it is so flexible, 
and it enjoys widespread support among Members on both sides of 
the aisle.
    Since 2005, CDBG has assisted nearly 1.5 million homeowners 
with services such as rehabilitation, down payment assistance, 
and lead abatement. It has helped to create or retain more than 
400,000 jobs, and it has benefited more than 45 million people 
through infrastructure improvements. HUD's own fiscal year 2019 
performance plan shows that eliminating CDBG along with HOME 
would reduce the number of units the Department expects to make 
healthy, physically safe, and lead-safe by two-thirds. This 
essential resource for State and local governments lies at the 
heart of HUD's community development mission, and eliminating 
it would have a very real and significant effect on the lives 
of millions of Americans.
    The HOME program is equally important for leveraging 
private dollars and promoting locally driven development. This 
program allows local governments to acquire, rehabilitate, and 
construct affordable housing and provide rental assistance for 
low- and very-low-income households.
    With every State suffering from a lack of affordable rental 
housing, we cannot simply afford to lose a program that has 
been successful in bringing private investment to the table. 
The budget request also proposes steep cuts to HUD's rental 
assistance programs. Funding for Section 8 voucher renewals is 
nearly $900 million below current levels, and the requests only 
provide 70 percent of the funds necessary for oversight, 
management, physical inspections, and assisting tenants with 
locating housing.
    Again this year, the request does not include funding for 
any new HUD-VASH vouchers. Those are the vouchers that are used 
to help homeless veterans. These vouchers have been critical in 
reducing veterans' homelessness by 46 percent since 2010.
    Some of the proposed reductions to rental assistance would 
require withholding inflationary rent increases to property 
owners. Other savings are assumed from a legislative proposal 
that has yet to be submitted to Congress. While these reform 
proposals fall under the jurisdiction of the Banking Committee, 
the funding request to this committee prematurely assumes that 
they will be enacted.
    The Administration's request for public housing programs is 
a dramatic shift from current policy. The budget proposes to 
rescind the fiscal year 2017 funding for the Choice 
Neighborhoods Initiative, including funding that was recently 
awarded to Lewiston, Maine.
    I would say parenthetically that I had a roundtable with 
people in Lewiston recently who were so excited about the grant 
for the Choice Neighborhoods program because they saw it as 
revitalizing an entire neighborhood, and that would attract 
other people to the neighborhood, it would cause children to 
grow up in a far better environment, it was aimed at not only 
rehabilitating housing, but also creating more jobs and a more 
exciting, vibrant neighborhood in which people could live.
    The request also proposes the elimination of the Public 
Housing Capital Fund, while only funding the Operating Fund at 
54 percent of projected needs. Any potential benefit from 
consolidating the Operating and the Capital Funds into a single 
funding stream is undermined by reducing the overall funding 
level. Neither residents nor taxpayers are well served by 
subsidizing poor quality housing.
    The Administration's request for public housing, while 
inadequate, does acknowledge a broader role for the Rental 
Assistance Demonstration, or RAD, program to enable public 
housing units to convert to project-based Section 8. RAD, which 
was created by this committee in 2012, has already leveraged 
more than $5 billion in new private and public funds and 
facilitated a level of construction that would have taken the 
public housing authorities nearly 50 years to accomplish 
through the Public Housing Capital Fund.
    More important, the RAD program has achieved these goals 
without increasing HUD's budget. The administration's request 
to eliminate funding for the Capital Fund would have, however, 
substantially reduced the intake of public housing into RAD 
from nearly 100,000 units per year to only 30,000 units.
    While I am deeply troubled by some of the budget proposals, 
I also believe that there are areas where HUD and this 
committee clearly share common interests. These include 
reducing the risk of lead paint exposure, reducing regulatory 
burdens on public housing authorities, supporting the RAD and 
Moving-to-Work programs, promoting self-sufficiency and 
addressing generational poverty, strengthening public-private 
partnerships, and continuing our efforts to reduce 
homelessness.
    Mr. Secretary, I very much look forward to hearing from you 
on these issues.
    And I now turn to Senator Reed for his opening statement.


                     statement of senator jack reed


    Senator Reed. Thank you, Chairman Collins. During the last 
4 fiscal years under your leadership, we have worked diligently 
to make investments in homeless assistance, affordable housing, 
and economic development programs in Rhode Island, Maine, and 
all across the country. I want to thank you very much for that, 
Madam.
    As a result of the recent budget agreement, the fiscal year 
2018 Omnibus increased funding for CDBG and HOME by more than 
$700 million combined, rejecting the President's proposed 
elimination of these critical infrastructure programs. We were 
able to make significant strides to expand housing assistance 
for our Nation's most vulnerable. In the fiscal year 2018 
Omnibus alone, we were able to: create more than 40,000 new 
Housing Choice Vouchers for people with disabilities, fund the 
construction of 2,600 new housing units for the elderly and 
people with disabilities, reduce lead hazards in over 12,900 
homes, provide $80 million in new resources to address youth 
homelessness, and target $50 million in new funding to rapidly 
house and serve victims of domestic violence.
    I look forward to continuing our work this year and thank 
you for your ongoing commitment to HUD programs and to people 
everywhere. Thank you, Madam.
    Secretary Carson, thank you very much for joining us today. 
Thank you for taking the opportunity to sit down yesterday with 
me. I appreciate it very much.
    Last year, you came before this subcommittee and discussed 
how the fiscal year 2018 budget request attempted to serve the 
most vulnerable and promote greater operational efficiencies 
without displacing families. However, much like last year, the 
fiscal year 2019 budget request before us seems to fall short 
of these goalposts and these objectives. In this budget, the 
President proposes to cut HUD programs by 22 percent, an 
astounding $11.5 billion below fiscal year 2018. This includes 
the elimination of critical infrastructure programs like Choice 
Neighborhoods, HOME, and the Community Development Block Grant, 
programs that give State and local leaders the leverage to spur 
affordable housing and community development and to create 
jobs.
    The budget also proposes to eliminate public housing 
capital grants and to starve public housing agencies' operating 
budgets by only providing 54 cents for every dollar required to 
manage our Nation's public housing stock, crippling the 
industry's ability and incentive to preserve the existing 1.1 
million public housing units nationally.
    The budget goes even further, cutting an additional $2 
billion from other popular programs with tremendous bipartisan 
support, including SHOP, Section 4, and homeless assistance 
programs that serve our veterans, youth, and those with 
disabilities. Mr. Secretary, those cuts don't appear to be 
arbitrary. They pose a real threat to already vulnerable 
populations, many of which are elderly or disabled and could 
leave tens of thousands of people homeless.
    While I appreciate your commitment to continuing 
initiatives that encourage self-sufficiency and improve the 
housing conditions for a portion of the Nation's low-income 
residents, this budget fails to make the necessary investments 
to meet the goals set forth in HUD's mission or even new 
strategic plan developed under your leadership. These cuts 
signify a halt to affordable housing construction and job 
retention across the country at a time when there are more than 
550,000 people experiencing homelessness. They also indicate 
the Department's desire to reduce its footprint in affordable 
housing and community development, while also eliminating 
tangible incentives for the private sector to fill the gap.
    Similar to last year's budget proposal, this budget request 
contains a number of rent and preservation reforms that would 
impose significant rent burdens on low-income assisted 
households. I find it disconcerting that all of these reforms 
are targeted to shift the cost burden to tenants and leave 
property owners with little-to-no upfront capital or operating 
assistance to make long-term preservation a viable option.
    Instead, we should be looking at a budget request that 
reflects the necessary funding for the bricks and mortar that 
give our homeless veterans and elderly neighbors a modest place 
to call home, a budget that improves the physical living 
conditions for families or people with disabilities who cannot 
move or wish to stay in their homes. We should be looking at 
investments that spur job creation, stabilize communities, and 
help move people through the housing continuum so that we can 
move the needle on serving our hardest-to-house Americans.
    I don't think that you can truly deliver on your promises 
to improve the self-sufficiency of HUD-assisted residents and 
protect our children from the harmful effects of lead-based 
paint under this budget, because it fails to first meet the 
most basic need of those very same families, which is a decent, 
safe, and sanitary place to call home. A budget, which fails to 
adequately protect housing for the 5 million families currently 
served through HUD's rental assistance programs, cannot 
possibly give these families any real chance at improved 
economic or health outcomes.
    Before I close, I would be remiss if I did not mention my 
concern regarding recent allegations of improper expenditures 
at the Department under your leadership. In my oversight 
capacity on this subcommittee, I want you to know that I take 
these issues very seriously, which is why I've joined my 
colleagues in asking the HUD Inspector General and GAO to 
investigate these matters. I look forward to the outcomes of 
these reviews.
    Once again, thank you, Mr. Secretary, for coming before us 
this afternoon. We look forward to your answers.
    Secretary Carson. Thank you.
    Senator Collins. Mr. Secretary, we look forward to hearing 
your testimony.


                   summary statement hon. ben carson


    Secretary Carson. Okay. Well, thank you very much, Chairman 
Collins and Ranking Member Reed, and members of the 
subcommittee. I'm delighted to be here today to discuss the 
work that we do at the Department of Housing and Urban 
Development and my plans for fulfilling our mission with 
fidelity to our congressional mandate and the best interest of 
the American people.
    The President's 2019 budget proposes more than $41 billion 
for HUD, a 1.4 percent increase over last year's request. We 
believe this is sufficient to effectively administer our core 
programs, continuing needed assistance to those individuals and 
families whom we currently serve, our most vulnerable 
populations, especially the elderly and persons living with 
disabilities.
    In addition, the requested level of funding for the Housing 
Choice Voucher Program will continue to support the same number 
of households as we currently serve and should not result in a 
termination of any housing vouchers. HUD's budget would also 
make a significant investment to continue the fight to end 
homelessness. Our budget proposes a record $2.4 billion to 
support thousands of local homeless assistance programs across 
our country.
    As a doctor for many years, I'm all too familiar with the 
effects of lead exposure on the developing brain. As a result, 
we are requesting $145 million to ensure that homes are free of 
lead-based paint hazards and other dangerous contaminants, 
especially for families with small children.
    I also recognize that we, as a department, need to do a 
better job to ensure the funds that we spend not only meet our 
requirements, but respect that these funds ultimately belong to 
the public. Consequently, I have directed HUD's new chief 
financial officer, Irv Dennis, to design and implement a 
transformation plan and lead an internal task force within HUD 
to combat waste, fraud, and abuse. Irv has made more--has more 
than 36 years of private sector experience, and is the perfect 
person to bring that kind of business acumen to the task.
    Ms. Chairman, in spite of the billions of dollars we've 
spent as a Nation trying to keep pace with the capital needs 
for our public housing stock, it hasn't worked. In fact, we're 
falling further and further behind. This budget recognizes that 
we need another way. HUD is proposing to pivot from the current 
financially unstable public housing model and, working with 
public housing authorities, seek a new way to produce and 
preserve affordable housing that so many families need.
    We're asking for the authority to give local public housing 
authorities the flexibility to use their operating funds to 
support their capital needs. And we're proposing to convert 
many more distressed public housing units to a project-based 
Section 8 financing model through a rental assistance 
demonstration, or RAD.
    To date, as was mentioned, RAD has stimulated more than $5 
billion in private investments to preserve this housing. Simply 
put, RAD is working. The budget proposes to open the door wider 
and allow more public housing authority to participate in this 
innovative approach.
    HUD is also supporting sustainable homeownership through 
programs at the Federal Housing Administration. Building 
household wealth through homeownership remains a keystone to 
helping Americans climb the economic ladder of success. That's 
why we've taken several steps to ensure FHA can continue to be 
a reliable source of mortgage financing for years to come. And 
I should mention it would be an incredibly wonderful thing if 
we had an FHA Commissioner.
    I'm also here today to repeat a request that you've heard 
from us for many years now from several administrations. We 
absolutely need to invest in FHA's information systems. FHA is 
built on a mainframe that is over four decades old. Staff at 
our homeownership centers still work on paper case files, 
creating inefficiencies and posing numerous quality control 
issues.
    Ms. Chairman and members of this subcommittee, last year 
was one of the most destructive in our Nation's history in 
terms of natural disasters, with three devastating hurricanes 
and destructive wildfires and mudslides in California. HUD is 
already supporting the long-term recovery that is taking shape 
in Texas, Florida, Puerto Rico, and the U.S. Virgin Islands. 
Clearly, we have a lot of work ahead of us.
    Since last September, Congress has appropriated more than 
$35 billion through HUD's Community Development Block Grant-
Disaster Recovery program. To date, we've allocated the $7.4 
billion appropriated in September and the 28 billion 
appropriated in March by the Bipartisan Budget Act of 2018. 
Nearly every program office at HUD has staff working on 
disaster recovery, many of whom have volunteered to travel 
disaster-stricken areas to serve on the front lines. My prayers 
are always with those who are still struggling to recover. We 
will continue to stand with them throughout the recovery 
process.
    HUD's essential mission is to provide safe, fair, and 
affordable housing for the American people. Our mission also 
supports opportunity and self-sufficiency so that families can 
move toward economic independence. I am eager to work with 
Congress and all the members of this committee to achieve what 
I believe are our common goals to better serve our fellow 
Americans.
    Thank you.
    [The statement follows:]
           Prepared Statement of Dr. Benjamin S. Carson, Sr.
                              introduction
    Chairman Collins, Ranking Member Reed, and members of this 
subcommittee, thank you for inviting me here today to discuss the 
President's fiscal year 2019 Budget request for the U.S. Department of 
Housing and Urban Development (HUD). As you know, HUD's fiscal year 
2019 Budget request is inclusive of the budget addendum that the 
Administration submitted to Congress.
    I also want to thank the members of this subcommittee for your 
support as HUD and other Federal agencies continue to work to ensure 
full recovery of the states and territories impacted by last year's 
natural disasters.
                        accepting our challenge
    The President's Budget lays out a vision for a Federal government 
that is efficient, effective, accountable, and provides for a strong 
national defense and economy.
    It also reflects the fact that we must better serve the American 
people by tackling our staggering $20.6 trillion national debt. This 
requires tough budgetary choices. Our children's and grandchildren's 
futures depend on it.
    At HUD, we believe the requested level of funding--$41.244 
billion--is sufficient to effectively administer our core programs, 
particularly as we are committed to running our programs more 
efficiently, spending every tax dollar with which we are entrusted 
wisely. I have directed HUD's new Chief Financial Officer, Irv Dennis, 
a Certified Public Accountant with more than 36 years of experience, to 
put the controls, systems, and processes in place to ensure we do just 
that.
    Even within this context of fiscal restraint, it is important to 
note this year's Budget request represents a 1.4 percent increase over 
last year's request.
                           budget highlights
    The Budget proposal ensures that HUD continues to serve the most 
vulnerable in our society--half of HUD-assisted households are elderly 
or living with disabilities. Our budget anticipates the adoption of 
forthcoming proposed legislative reforms and will not increase rent 
payments for currently served elderly or disabled households. In 
addition, the funding level for the Housing Voucher program would 
support the same number of households as currently assisted and should 
not result in the termination of any housing vouchers.
    HUD's Budget also makes a significant investment in the fight 
against homelessness. The Department's Point-in-Time count, conducted 
in January 2017, indicated homelessness was on the rise for the first 
time in a decade, primarily driven by high-cost housing markets along 
the east and west coasts. Our Budget proposes spending $2.383 billion, 
a $133 million increase over last year's request, and includes $40 
million for rapid re-housing targeted to communities with high rates of 
unsheltered homelessness.
    Additionally, as a neurosurgeon, I am all too familiar with the 
effects of lead exposure on the developing brain. As a result, we are 
requesting $145 million to ensure that homes are free of lead-based 
paint hazards and other dangerous contaminants, especially for families 
with small children. This is an 11.5 percent increase over last year's 
request.
                         refocusing our efforts
    The centerpiece of this year's Budget proposal is our promotion of 
economic opportunity and self-sufficiency.
    For too many years, we have measured the effectiveness of housing 
and other anti-poverty programs by the number of Americans 
participating in them. With this Budget, we propose measuring success 
by the number of people we help to exit the programs with positive 
outcomes. To help transition the people HUD serves towards economic 
independence, we are requesting $75 million for the Family Self-
Sufficiency program and $10 million for Jobs Plus.
    We are also requesting funding to evaluate the EnVision Center 
Initiative, a demonstration that will leverage public-private 
partnerships to connect individuals and families living in HUD- 
assisted housing with job-training, education, health and wellness, and 
other streamlined services that lead to self-sufficiency.
    HUD is also beginning to pivot from the current, financially 
unsustainable model of public housing and will be working with Public 
Housing Authorities (PHAs) to find the best way to support assisted 
families through other housing platforms. It was a difficult decision 
to not request funding for capital improvements in Public Housing. 
Instead, we've asked for PHAs to have the flexibility to use operating 
funds for capital needs. This will allow PHAs to function more like 
every other multifamily building owner in America. We also believe that 
encouraging states and localities to bring more resources to the table 
helps ensure that PHAs are empowered to make decisions at the local 
level that best address the needs of their communities.
    As part of the transformation of public housing, HUD is committed 
to providing new strategies and enhancing existing tools so that PHAs 
are provided with additional options to operate their portfolios. For 
example, HUD is developing a streamlined process to allow PHAs to 
convert public housing assistance to vouchers where this would save 
taxpayer money and give families more choice in deciding where to live.
    HUD is proposing to convert an expanded number of units in our 
nation's housing stock to project-based Section 8 ownership via the 
Rental Assistance Demonstration (RAD). RAD is a program that multiplies 
the impact of private and other investment in order to rehabilitate 
aging affordable housing across the country. In order to stretch those 
dollars further, HUD is requesting $100 million specifically for RAD 
and supports lifting the cap on RAD units so more communities can 
participate. To date, PHAs and their partners have raised $5 billion to 
improve and recapitalize 88,000 public housing units at revenue neutral 
rent levels. This would have taken decades to accomplish through 
traditional public housing funding streams.
                              rent reform
    HUD spent the past year examining its main rental programs--Housing 
Choice Vouchers, Project-Based Rental Assistance, Public Housing, 
Section 202 Supportive Housing for the Elderly, and Section 811 
Supportive Housing for Persons with Disabilities--with the goals of 
improving resident outcomes, decreasing administrative burdens, and 
maximizing public investment.
    As a result of this work, HUD's Budget proposal is based on a 
legislative package to modernize and streamline existing rental 
assistance programs. Our plan will simplify program administration, 
encourage work and stable family formation, increase local control and 
choice, promote fiscal sustainability, and protect currently assisted 
elderly and disabled households from adverse impacts.
    Features of the plan include establishing mandatory minimum rents; 
simplifying rent calculations; increasing tenant rent contributions 
while protecting the most vulnerable current tenants, primarily the 
elderly and disabled; incentivizing work by limiting income 
recertification for all households to once every 3 years; providing a 
hardship exemption for tenants who are unable to pay their rents; and 
giving PHAs and property owners the option to choose alternative rent 
structures that work best for their communities.
                     federal housing administration
    HUD is also laying a better path to homeownership through programs 
at the Federal Housing Administration (FHA). Building equity in a home 
remains a critical component of helping Americans climb the economic 
ladder of success. But we don't do the families we serve any favors if 
we facilitate lending that is unsustainable--not to mention the 
taxpayers who stand behind our $1.2 trillion book of business.
    That is why we have taken several steps to ensure FHA can play a 
viable role in mortgage lending for years to come. One of the first 
actions the Trump Administration took was to pull back the prior 
administration's proposed mortgage insurance premium decrease for FHA. 
Our analysis shows this was the absolute right decision: had the 
premium reduction gone forward, FHA would have found itself below its 
statutory 2 percent minimum capital ratio requirement.
    We also acted swiftly to improve the health of the Mutual Mortgage 
Insurance (MMI) Fund by placing FHA's reverse mortgage program, the 
Home Equity Conversion Mortgage (HECM) program, on a more financially 
sound footing for new books of business. HECM has been a drain on the 
MMI Fund, depleting it of $11.7 billion since 2009. We are monitoring 
this program closely to determine what additional changes are 
warranted, while simultaneously expecting to face continued losses due 
to older, existing loans in the portfolio.
    Another change we made recently involves protecting the taxpayers 
who make FHA insurance possible. A few months ago, we made ineligible 
for FHA insurance properties encumbered with Property Assessed Clean 
Energy (PACE) obligations. Prior to this decision, PACE obligations had 
effectively been given priority lien status over FHA-insured mortgages, 
which presented unacceptable risks for taxpayers.
    Managing our risk also involves operating a stable technology 
platform for FHA. HUD can no longer defer this important investment. 
FHA is built on a mainframe that is over four decades old. Staff at our 
homeownership centers still work on paper case files, which not only 
presents inefficiencies, but also poses numerous issues for quality 
control.
    That is why HUD has proposed up to $20 million to fund targeted 
improvements in single-family Information Technology (IT) and allow FHA 
to better interact with a modern financial system. To offset the cost 
of this critical investment, the Budget proposes a modest fee of no 
more than $25 per loan that would apply on a prospective basis and 
expire after 4 years. It will take the cooperation of government and 
private sector lenders to make this needed investment, but I am certain 
it is one that will lead to mutually-beneficial outcomes.
    Another important source of affordability for millions of Americans 
is manufactured housing. Today, it accounts for about 10 percent of the 
market, and an even greater share for those in rural areas. As the 
agency that implements the Federal laws governing the quality, safety, 
and affordability of manufactured housing, HUD has a key role to play 
here. We have instituted a regulatory review of all manufactured 
housing rules with an aim towards reducing undue burdens on production. 
We must strike the right balance between ensuring the availability of 
such homes and protecting the families who will reside in them.
                           disaster recovery
    It is important to note the ongoing disaster recovery efforts 
underway at HUD. Since last September, Congress has appropriated $35.4 
billion in long-term disaster recovery funding under the Community 
Development Block Grant--Disaster Recovery (CDBG-DR) program. The 
initial amount of $7.4 billion has been fully allocated and related 
guidance has been issued. On April 10, the Department allocated the 
full $28 billion contained in the Bipartisan Budget Act of 2018 and 
will issue the related guidance in the coming months. HUD will work 
with each grantee to ensure the funding is spent in accordance with 
Congress' intent.
    HUD has also provided ongoing relief to homeowners in the 
Presidentially Declared Major Disaster Areas. This includes the 
recently announced ``Disaster Standalone Partial Claim,'' a new option 
that covers up to 12 months of missed mortgage payments through an 
interest-free second loan on the mortgage, payable only when the 
borrower sells the home or refinances the mortgage. In addition, the 
moratorium on foreclosure actions against insured borrowers in Puerto 
Rico and the Virgin Islands has been extended until May 18, 2018. Other 
resources, including forbearance and loan modification options, 
continue to be available as well. HUD continues to provide technical 
assistance to mainland PHAs and displaced residents.
    Nearly every program office at HUD has staff working on disaster 
recovery, many of whom have volunteered to travel to disaster-stricken 
areas and serve on the front lines. My prayers are always with those 
who are still struggling to recover.
    HUD has a government-wide mission to coordinate housing recovery, 
not just for HUD-assisted households, but for all Americans who are 
impacted by disasters. We continue to take this obligation seriously 
and are committed to supporting the communities as they rebuild.
                               conclusion
    HUD is committed to safe, fair, and affordable housing for the 
American people. It also acts as a stepping stone to opportunity and 
self-sufficiency so that families can graduate from assisted housing to 
economic independence. President Trump's proposed fiscal year 2019 
Budget will enable HUD to fill this role, now and in the future, 
through reforming and refocusing our programs and necessitating careful 
stewardship of taxpayer dollars.
    I am eager to work with Congress and all the members of this 
Committee in achieving these worthy goals to better serve our fellow 
Americans.

    Senator Collins. Thank you very much, Mr. Secretary.
    I see that we have been joined by the ranking member of the 
full committee, Senator Leahy. And I wondered if the Senator 
would like to make a statement before we turn to questions.
    Senator Leahy. That's okay. Thank you. Thank you, Madam 
Chair. I don't now have questions. Thank you.
    Senator Collins. Thank you.

                                  CDBG

    Secretary Carson, once again this administration has 
proposed to eliminate the Community Development Block Grant 
program. I will tell you that it is the most popular program 
that this committee deals with in HUD. We hear from virtually 
every member of the Appropriations Committee asking us to fully 
fund this program. And one reason is that it's been shown to be 
so effective at the State and local level, and it supports 
projects that are truly community devised and driven rather 
than a Washington-dictated approach.
    I know that the budget was put together before you knew 
what the budget caps were going to be for this year. And I also 
know, and I commend you for this, that, as Secretary, you have 
visited numerous communities to look at HUD's programs and to 
see whether or not they are working. Every dollar that's 
invested in the CDBG program leverages almost 4 additional 
dollars through other sources, and, as I said, it's really 
locally driven, which makes it effective as well.
    Are you still wedded to the elimination of this program now 
that you know that we've got a higher budget cap for this year 
than may have been anticipated when the budget was drafted?
    Secretary Carson. Well, thank you very much, Madam 
Chairman, first of all, for your incredible service to our 
country and not missing a vote in over 6,000 votes, the Cal 
Ripken of the Senate. It's very impressive.
    Senator Collins. Thank you.
    Secretary Carson. And for your care for the people.
    You know, in going around the country and visiting various 
programs, you know, you might be shocked to know that I don't 
disagree with you or Senator Reed about the effect of some of 
these programs and how important they are. But the issue really 
comes down to one of, do we experience a little pain now so 
that we're sustainable in the future so that our children and 
our grandchildren are not completely overwhelmed by debt, or do 
we look at it another way?
    And so, you know, the fact of the matter is whatever funds 
we have, obviously, we're going to use them very efficiently 
and very effectively. We're going to recognize that we have an 
obligation to the taxpayers. Without question, the more money 
we have, the more people we can help. But, you know, I think we 
have to at some point come to balance this because at the rate 
that we're accumulating debt, by the year 2048, every dime that 
government takes in will be used to service the debt, there 
will be no money for any programs. We won't be talking about 
reductions, we'll be talking about bankruptcy.
    Senator Collins. Well, this is a program that helps 
generate economic activity and create more jobs. And in that 
sense, it helps produce more revenue for the Federal 
Government. So I look forward to continuing to talk to you 
about that.

                                  LEAD

    You mentioned in your opening statement that, as a doctor, 
you share our concern for protecting children from the dangers 
of exposure to lead. And I know you know far better than we do 
about the impact on developing brains. Maine is a State with 
the oldest housing stock in the Nation, so we have a lot of 
lead paint. I am excited about the progress that we can make 
with the increased funding for lead grants that is included in 
the omnibus bill. But there's a way to stretch those dollars 
even further that I just want to raise with you.
    I mentioned that last month that I participated in a 
roundtable discussion in Lewiston, Maine, and there were owners 
of low-income properties, affordable housing, and contractors 
who told me that the peeling, chipped windows in older homes 
are a major source of exposure to the children, to lead 
exposure to the children, living in those apartments, and that 
right now what happens under the lead abatement program is the 
people are cleared out for a while, but they sand that lead 
paint off, which produces a cloud of inhalable lead particles, 
so it even makes it worse. And the answer really is new 
windows, and the reason the answer is new windows is these 
windows are leaky, they're highly energy inefficient.
    And a lot of cities, such as Lewiston, receive both the 
lead grants from HUD and Department of Energy weatherization 
assistance grants. So it seems like if we could coordinate 
those two programs, we could actually replace the windows, 
eliminate the lead hazard and the hazard that results in the 
repair and refurbishment of those windows, and end up in far 
more energy-efficient apartments.
    Secretary Carson. Right.
    Senator Collins. So this is an example where it seems like 
the Federal Government is not working well within the two 
agencies to coordinate these programs. Do you have any thoughts 
on this issue? I realize I'm going over my time, so----
    Secretary Carson. Sure. I have a lot of thoughts on this 
issue, but, you know, I could talk about this all afternoon, 
the impact. And I'm just thrilled that you're concerned about 
this.
    And, Senator Reed, you know, we've talked about this.
    The cost to the individual in terms of their potential is 
incalculable, but the cost to society long term, six and seven 
figures per child, and it makes absolutely no sense. I love 
your idea about combining our efforts. We're doing that in 
several areas now, but we'll look into that one as well.
    Senator Collins. Thank you.
    Senator Reed.
    Senator Reed. Madam, I'll yield for Senator Leahy.
    Senator Collins. Senator Leahy, Senator Reed has yielded to 
you.
    Senator Leahy. All right. Thank you. Thank you both, from 
both ends of New England.

                        BUDGET CUTS / RECISSIONS

    Secretary Carson, you've heard a lot of concerns from here 
on the Hill. The Administration has proposed elimination of 
Community Development Block Grants, the HOME Investment 
Partnerships, the Rural Capacity Building Grants, and harsh 
rental reforms. I could go on and on. We had members of this 
subcommittee express strong concerns last year when you said 
you wanted to eliminate these vital programs, and now you're 
back here saying the same thing.
    And, frankly, the questions I get back home, are you folks 
just totally tone-deaf to what's going on? I mean, you order a 
$31,000 dining room set using taxpayers' money, $31,000. I 
don't even know what that could look like. But $31,000, I'll 
tell you, is double the extremely low-income limit to access 
Section 8 assistance for an individual in Addison, Bennington, 
Caledonia, Essex, Lamoille and others counties in Vermont. A 
$31,000 dining room set is more than double their annual 
income.
    Despite the fact that the President signed the bipartisan 
budget agreement and gave his word that he backed it, now the 
press is reporting that he's considering going back on his word 
and sending a package of rescissions to Congress to undo the 
spending decisions based on that deal. We Vermonters think when 
you make a deal you keep it.
    And you and I have different visions of what should be in 
the budget for the Department of Housing and Urban Development. 
The Congress, in a bipartisan vote, the House and Senate 
clearly rejected the President's proposed cuts. So given the 
fact of the difference between the vision Congress has for the 
Department and yours, have you or anyone on your staff 
recommended or do you plan to recommend to the President or OMB 
that we rescind any of the money we recently appropriated for 
housing and community development programs?
    Secretary Carson. Well, as I mentioned to you, I recognize 
the benefits of many of these programs. And there's a tension--
--
    Senator Leahy. That's not my question. My question, is have 
you or anyone on your staff recommended or plan to recommend to 
the President or OMB that we rescind any of the money we 
recently appropriated for housing and community development 
programs? That's an easy yes or no answer.
    Secretary Carson. I have not talked to anybody this week 
about that, but throughout the process----
    Senator Leahy. Have you or anyone in your Department 
proposed to the President or OMB that we rescind any of this 
money? I don't care if it's this week or last week or any other 
time, have you?
    Secretary Carson. I have talked many times about 
particularly protecting the elderly and the disabled and making 
sure that we don't have multiple conversations about it.
    Senator Leahy. Okay. Let me try it in English. Have you or 
anyone in your Department recommended that we rescind any of 
the money we recently appropriated for housing and community 
development proposals?
    Secretary Carson. The proposal to rescind things has come 
up during the last week, and I already said that I have not 
spoken to anybody about that.
    Senator Leahy. Do you intend to recommend any rescissions?
    Secretary Carson. I imagine we will be engaged in 
discussions, yes.
    Senator Leahy. What would you recommend to rescind?
    Secretary Carson. I would recommend that we think about not 
only what is going on today, but what will be going on 30 years 
from now.
    Senator Leahy. Okay, but we're dealing with this year's 
budget. What would you talk about rescinding in this year's 
budget?
    Secretary Carson. I think, again, I hope no one here is 
tone-deaf, but clearly there's----
    Senator Leahy. We're not--we're not tone-deaf to a clear 
definitive answer, Mr. Secretary.
    Secretary Carson. Someone has to be concerned about what's 
going to happen in the future. Someone has to.
    Senator Leahy. Good. I'm concerned about the future. What 
are we doing this year? Are you going to be recommending any 
rescissions?
    Secretary Carson. I will continue to advocate strongly for 
the disabled, the elderly, and the most vulnerable people in 
our society.
    Senator Leahy. Well, you didn't last year in the proposals 
you made. So let me ask you one more time, do you intend to 
recommend any rescissions in this year's budget?
    Secretary Carson. And let me just say one more time, I will 
continue to advocate strongly for the most vulnerable people in 
our society, absolutely.
    Senator Leahy. I'll just note for the record, Madam Chair, 
he is not answering the question and has no intention to answer 
the question apparently, or maybe doesn't know how to answer 
the question. I yield my time.
    Senator Collins. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    And, Secretary Carson, thank you for being here. Thank you 
for being willing to serve.

                        FAMILY SELF-SUFFICIENCY

    I have a couple of questions. One, Senator Reed and I have 
legislation that we have probably all three talked about, not 
at the same time, but I think he's talked to you and I've 
talked to you about the Family Self-Sufficiency ideas that we 
have to make that program----
    Secretary Carson. Yes.
    Senator Blunt [continuing]. Work more smoothly. One of the 
things it would do would be to combine two different Family 
Self-Sufficiency Programs: one is under the Housing Choice 
Voucher Program, the other is under the Public Housing Program. 
There's really no reason to have two programs or them to run in 
a dramatically different way than they currently run. It would 
also expand the scope of Family Self-Sufficiency to where 
things like efforts to get a GED and efforts to increase 
education and workplace capacity could be included under those 
Family Self-Sufficiency Programs. And I think the third thing 
that we would do there is allow privately owned properties to 
also be part of a rental program. Obviously, it would be great 
to have your support of that and your enthusiastic 
implementation if we get it done. But I would like--my first 
question would be a reaction to that legislation that I know 
you've had a chance to look at.
    Secretary Carson. Yes. Well, first of all, thank you for 
advocating for that. I've enjoyed the discussions you and I 
have had about that. And I would strongly support the 
amalgamation of the Family Self-Sufficiency Programs. It would 
save us a lot in administrative costs and it just makes sense. 
It's a logical thing to do.
    Senator Blunt. And what about the private rental property 
being included under that program?
    Secretary Carson. I would be very amenable to such a thing.
    Senator Blunt. And I'm assuming the education things also. 
Those are sort of the three components?
    Secretary Carson. Well, in fact, I would go so far as to 
say if you give somebody a good education, it doesn't really 
matter what their socioeconomic background is, they write their 
own ticket. And it's something that we really need to spend 
much more time emphasizing.
    Senator Blunt. Well, and you certainly are a great example 
of what education can mean in the changing the trajectory of a 
family, and we honor you for doing that.

                           PHA FLEXIBILITIES

    Last year, we gave you the authority to waive some of the 
limitations for public housing agencies, we gave you that 
authority again this year, and allow them to use more capital 
and operating funds for public safety. You may have addressed 
that briefly in your testimony, but the question would be, do 
you intend to waive those regulations again this year? And do 
you have any particular examples of where public safety 
spending has made a big difference in whether housing authority 
was working or not?
    Secretary Carson. Yes. It's a very important issue and 
vitally important that we give them that flexibility. I have 
had an opportunity to see a number of places, particularly in 
Detroit, where they were able to use some of the funding to put 
lighting in, to put cameras in, and the police say it has 
drastically decreased the criminal activity in those areas, 
provided much more safety. So I think these are excellent uses 
of the money.
    Senator Blunt. All right. And so you are continuing to 
encourage that. I think the reason the Congress gave you that 
authority is so you could use it, and glad to see that you're 
doing that. And thank you for your attendance today.
    Secretary Carson. Thank you.
    Senator Blunt. Madam Chairman, I'm done with my questions.
    Senator Collins. Thank you very much.
    Senator Reed.

          COMMUNITY DEVELOPMENT BLOCK GRANT DISASTER RECOVERY

    Senator Reed. Thank you very much, Madam Chairman.
    And thank you again, Mr. Secretary. We had a chance to 
speak in my office, and we brought up the topic of the CDBG-
Disaster Relief. You indicated that you had published the 
allocations--and I applaud you for doing that--but, as we 
recognized, until those allocations are published in the 
Federal Register and the allocation plans have been vetted and 
reviewed by HUD, States and localities cannot begin to obligate 
funding for their recovery activities. When do you anticipate 
publishing the final allocations in the Federal Register so 
that grantees can move forward with the recovery process?
    Secretary Carson. Those are in the process of being 
completed at this point. And the other thing that we've 
committed to, recognizing how long it has taken in the past to 
actually get the funds to the people who need them, is we have 
a 90-day review period; we're trying to shorten that to 45 days 
or less.
    Senator Reed. I'll emphasize the obvious. It has been a 
long time since the storms broke, particularly for those people 
who have been put out of their homes literally. This money 
might not reach these communities until this summer. And 
ironically, as they repair their homes, they'll also be 
anticipating a new hurricane season, which starts roughly 
around September. I urge you with all deliberate speed to get 
those allocations published.
    Secretary Carson. No, you're absolutely right. And one of 
the reasons that it took longer for the first traunch, the 7.4, 
is because we weren't sure what else was coming along. The 
process has been completed now, and the $28 billion has already 
been designated. Even though we have until the end of this year 
to do it, it's already been done, and we're going to be working 
very hard to get that to people.
    Senator Reed. We also provided, Mr. Secretary, $15 million 
for technical assistance and capacity building so that 
applicants can respond quickly and develop and execute their 
allocation plans, particularly in the communities that were 
hardest hit in 2017.
    Secretary Carson. Absolutely.
    Senator Reed. What's your strategy for deploying this 
funding for technical assistance and capacity building? As we 
discussed in my office, there are some areas that probably need 
not only more help, but also longer term help, so that they 
develop feasible allocation plans and subsequently meet their 
long-term recovery goals. Can you comment on that?
    Secretary Carson. Well, you're exactly correct about that. 
And one of the things that we're doing now is making sure not 
only that we get the technical assistance to the disaster area 
immediately, which we've done with all of these, but to have 
it--have them maintain their presence, particularly in 
situations where they have not experienced this kind of 
disaster before. In the places where they have a lot of 
experience with it, not so much, but we're not going to treat 
them all the same.
    Senator Reed. The other point is that these disasters are 
occurring much more frequently. It seems that a 100-year flood 
is now seemingly a 20-year flood.
    Secretary Carson. Yeah.
    Senator Reed. However, HUD's Office of Disaster Emergency 
Management has never been fully operationalized. We all 
anticipate that unfortunately these types of natural disasters 
are going to happen with greater frequency. What are you doing 
to increase this office's capabilities, and develop a more 
permanent disaster and resiliency effort at HUD?
    Secretary Carson. Sure.

                               RESILIENCY

    Senator Reed. Mr. Secretary, you speak very eloquently 
about the future. One of the ways we have to deal with these 
disasters in order to save money as well as maintain quality of 
life is to focus on resiliency, not just reconstruction. Can 
you give us an idea of how you're going to reorganize the 
Department to accomplish those goals?
    Secretary Carson. Yeah. Well, you know, we have 23 people 
there right now who are essentially full-time because of the 
length of time it takes to deal with these disasters. We are 
looking to actually increase that number. We're looking for 
people right now. The problem is the people are so good at what 
they do, people are trying to pick them off from us. So we have 
to try to maintain as well as increase that area.
    Resiliency is really the key. We have learned that. And 
that's why, you know, there's been so much emphasis on 
mitigation with Congress and with the agencies themselves. 
We'll continue to emphasize that.
    You know, a very good example of that is Florida. The 
reason that Florida didn't experience as much damage as some of 
the other places is because of the mitigation that took place 
after the last set of hurricanes there. So it actually does 
work.
    Senator Reed. Thank you very much.
    Thank you, Madam Chairman.
    Senator Collins. Thank you, Senator Reed.
    Senator Daines.
    Senator Daines. Thank you, Madam Chairman.
    And thank you for testifying before the committee, 
Secretary Carson. Secretary Carson, it was truly wonderful to 
have you out in Montana last summer.
    Secretary Carson. God's country.
    Senator Daines. Yeah, it is. At least we know He vacations 
there for sure.
    [Laughter.]
    Senator Daines. We got to experience firsthand beauty, of 
course, that part of our State, but also the affordable housing 
challenges in my home State. When you took your position at HUD 
nearly a year ago, you expressed a vision for your agency's 
facilitation of individual self-sufficiency through empowerment 
as well as economic opportunity.
    Secretary Carson. Right.
    Senator Daines. Today I'm very pleased to see you have made 
good progress in that mission through the President's fiscal 
year 2019 budget proposal. Now it's up to Congress to 
complement your vision by providing a partnership for the sake 
of vulnerable Montana families that don't feel empowered, 
rather, they feel somewhat stuck.

                           HOUSING COUNSELING

    The research is very definitive showing that housing 
education and counseling creates homeowners who are able to 
purchase and sustain homeownership. HUD's involvement in this 
process is key. I remember I think it was Milton Friedman that 
says nobody washes a rental car. Moving people to homeownership 
is so important, it's part of really the human condition.
    And so HUD's involvement, and as a kid who grew up as a son 
of a homebuilder, I know it's very important, especially a 
State like Montana, where housing counseling agencies cover 
very large rural areas.
    My question for you, Secretary Carson, is, what is the 
Administration's commitment and envisioned role in housing 
counseling agencies and intermediaries, such as NeighborWorks 
Montana?
    Secretary Carson. Well, thank you for that question because 
it gives me an opportunity to tell you how much I appreciate 
the effect of housing counseling agencies. You know, we've been 
able to demonstrate that people who receive housing counseling 
default at a rate of one-third less than those who did not 
receive it. So these organizations are vitally important. And 
we are obviously funding them to a very significant extent. 
There are like 2,100 around the country.
    And the key thing is really getting people to take 
advantage of them and disseminating the information both 
through social media, through electronic media, through print 
media. And it would be very nice, obviously, if some of the 
loan officers themselves would make people cognizant of these 
things, and some of them do. That's something that we just need 
to continue to push it. I think it makes a big difference.

                           WORK REQUIREMENTS

    Senator Daines. I'm going to switch gears to talk about 
work requirements. The Federal Government spent over $700 
billion in low-income assistance, and on April 10th, President 
Trump issued Executive Order 13828, which would strengthen work 
requirements for low-income assistance programs. What action do 
you envision HUD taking in response to this Executive order?
    Secretary Carson. Well, you know, interestingly enough, 
there were already work requirements in place since 1998, which 
Clinton signed. And I am delighted that the President has 
signed this order because it tries to bring uniformity 
throughout the agencies, consistency, so that we don't have one 
fighting against another.
    The whole concept of work and self-sufficiency is 
incredibly important. I don't think anybody on either side 
would disagree with that. The problem has been the impediments 
inherent in the system so that, you know, when a person begins 
to earn more money, they are penalized in terms of their rent, 
and we begin to pull their support as they climb the ladders of 
self-sufficiency. Those are things that we now recognize and 
are ameliorating.

                            ENVISION CENTER

    Senator Daines. Last question, and I'm out of time. I want 
to talk about your Envision Center initiative. Could you share 
the approach used by HUD to attract private industry 
involvement in your Envision Center initiative?
    Secretary Carson. Well, the whole concept behind Envision 
Centers is bringing under one roof the need and the resources. 
And the first one is due to open up in Detroit soon. Two more 
have already sprung up as a result of the publicity that the 
first one has gotten. And we've had no difficulty at all 
attracting people who want to be involved because they 
recognize that this is going to be a source of employees for 
them and workers for them.
    Senator Daines. Montana is a long way from Detroit, Mr. 
Secretary, but I wonder if we could get an Envision Center in 
Montana, given your early successes.
    Secretary Carson. Well, we're coming your way. And there 
are some people that I met in your area who are going to be 
very supportive.
    Senator Daines. Right. Thank you.
    Secretary Carson. Thank you.
    Senator Collins. Thank you, Senator.
    Mr. Secretary, before I call upon Senator Schatz, I'll just 
remind you that Maine comes before Montana, not only in the 
alphabet, but in every good HUD program that is out there.
    [Laughter.]
    Senator Daines. I yield to the chair.
    Senator Collins. Wise man.
    Senator Schatz.
    Senator Schatz. Thank you very much.

        OFFICE OF FAIR HOUSING AND EQUAL OPPORTUNITY ENFORCEMENT

    Thank you, Secretary, for being here. On March 28th of 
2018, the New York Times described--described how HUD has 
rolled back enforcement actions aimed at reversing racial and 
ethnic discrimination in federally subsidized housing projects 
during your tenure. And in particular, the article highlights 
an investigation opened in 2016 into claims that Facebook 
encouraged discriminatory practices by allowing advertisers to 
exclude certain ethnic groups from viewing ads for housing 
sales and rentals.
    The article then goes on to describe how your aides ordered 
the Office of Enforcement to halt its investigation, which was 
then followed by a letter from Assistant Secretary Farias 
terminating the Facebook investigation without explanation. And 
despite the decision not to investigate these claims, a recent 
investigation released in November of 2017 found that Facebook 
continues this practice to this day.
    Were you involved personally in the decision to terminate 
the Facebook investigation?
    Secretary Carson. I give all of my people the degree of 
independence that they need. But I will tell you that----
    Senator Schatz. So whose decision was this?
    Secretary Carson. I think we jointly agreed that was an 
appropriate thing to do at that time----
    Senator Schatz. What does that mean, you have a hierarchy 
and there are certain authorities, Assistant Secretaries and 
professional staff. Was this your decision? Was this a GC?
    Secretary Carson. Well, the Secretary is responsible for 
all decisions regardless of who makes them.
    Senator Schatz. But who made the decision?
    Secretary Carson. The decision was made at a level other 
than myself, but I gave permission for the decision to be made.
    Senator Schatz. And what level is that?
    Secretary Carson. The Assistant Secretary.
    Senator Schatz. Okay. And on what basis?
    Secretary Carson. Well, on the basis that some of the suits 
that were being pursued, we didn't really have time to study 
them, so we wanted to really pull them back and have a chance 
to study them. And we have actually reopened the Facebook case 
after having an opportunity to study it.
    Senator Schatz. The investigation is open again.
    Secretary Carson. It is.
    Senator Schatz. Is this the first we're hearing about it?
    Secretary Carson. It may well be.
    Senator Schatz. Okay. Well, I think the committee, both 
this Committee on Appropriations for THUD as well as the 
Banking Committee, is going to want to understand where you are 
in this investigation and what you plan to do because that was 
my whole line of questioning, is, where is the paper trail? Who 
is making decisions and on what basis? But I'm happy to see 
that the investigation has been reopened.
    Secretary Carson. We were very concerned when we began to 
uncover the facts.

                        AFFORABLE RENTAL HOUSING

    Senator Schatz. Thank you very much. Mr. Secretary, HUD 
working with lenders has had success supporting multifamily 
development with a very strong credit performance and some of 
the lowest delinquency rates in the industry. How do you see 
HUD's role in the multifamily mortgage markets to help increase 
the supply of affordable and workforce rental housing?
    Secretary Carson. Well, the role of Federal Housing 
Administration (FHA) obviously is a key role in terms of 
affordability and helping people to realize the American dream. 
You know, the FHA really acts more like an accordion. When 
credit is relatively easy, then we tend to shrink, and when 
credit is very difficult, we tend to expand. And obviously we 
tend to focus more on first-time, you know, homebuyers and 
minorities and people who have been disadvantaged in the past.

                          POVERTY AND FAMILIES

    Senator Schatz. My final question for you has to do with 
the recent Executive order calling for significant reforms to 
welfare programs. And I'm going to try not to--because we only 
have 53 seconds remaining--not to get into a kind of 
ideological conversation about these programs, because here you 
are, Secretary of HUD, here we are talking about funding for 
HUD. So we've already kind of stipulated that we think the 
government ought to be in the role of at least assisting people 
to find housing. But I want to quote for you one part of the 
Executive order, which said that many Federal programs 
perpetuated poverty and weakened family bonds and traps many 
recipients, especially children in poverty.
    Do you have data, does the Department have data, to back up 
that assertion?
    Secretary Carson. We will be happy to make that data 
available to you and your staff, absolutely.
    Senator Schatz. Do you have any of that data off the top of 
your head? If this is administration policy, it seems to me 
that there should be something behind it.
    Secretary Carson. Well.
    Senator Schatz. I understand the sort of difference between 
the parties as it relates to the social safety net----
    Secretary Carson. Let me give you an example.
    Senator Schatz. But that's a pretty strong statement, and I 
don't want an anecdote, I want rigorous analysis that shows 
that these programs actually trap people and weaken family 
bonds. But that is not my understanding of the data.
    Secretary Carson. Let me give you a very good example of 
that. Because the rent structure goes up when a person is added 
to the household, like a spouse or another contributing adult, 
it disincentivizes family unity. That's one example.
    Senator Schatz. Okay. That's actually not at all 
unreasonable. I'm not sure that's what's contained in the 
Executive order. I'm not sure that's the thrust of the 
Executive order. But if that's how it's going to be interpreted 
to make sure that we don't provide perverse disincentives for 
family unity, we can work together on that.
    Secretary Carson. Sounds good.
    Senator Schatz. Thank you.
    Secretary Carson. Okay.
    Senator Collins. Senator Capito.
    Senator Capito. Thank you, Mr. Secretary.
    And thank you, Madam Chair and Ranking Member, for this 
hearing today.

          COMMUNITY DEVELOPMENT BLOCK GRANT DISASTER RECOVERY

    Mr. Secretary, I want to thank you for your leadership 
through the Department on the CDBG Recovery Assistance program. 
You and I have talked about this particularly our West Virginia 
flood recovery.
    Secretary Carson. Yes.
    Senator Capito. And I know that you faced a time crunch in 
your Department this year to allocate those funds, and your 
work is greatly appreciated.
    One of the things that's sort of mystified us in our office 
and our State authorities, including our Governor, has been the 
best and most effective way to estimate the damage, not just at 
the present, but then going forward. And I would say if you 
would have any thoughts on that, I'd be interested to hear your 
thoughts.
    Secretary Carson. Yes. Well, first of all, thank you so 
much for the conversation we had earlier.
    One of the things that we've discovered is that putting 
people on the ground immediately, even though we're not 
traditionally the first responders, FEMA and SBA are, we have 
an opportunity to work directly with them in terms of that 
assessment, and then to continue that over the course of time, 
but also to add into the equation people in the local 
government who are familiar with the situation and tenants 
themselves. All of those things I think give us a much better 
and a much quicker assessment of what the unmet needs are.
    Senator Capito. Are you doing that now?
    Secretary Carson. Absolutely.
    Senator Capito. So did you do that like during Harvey and 
that worked more efficiently.
    Secretary Carson. Yes. It's still going on.
    Senator Capito. It's still going on.
    Secretary Carson. Yes.
    Senator Capito. The other question recently was announced, 
the latest round of fund for mitigation. West Virginia received 
106 million. Mitigation, when I think about it, I think you and 
I talked about this the other day, when I think about 
mitigation, I think a lot of us think about mitigating the 
streams and mitigating the waterways, the dams, and all the 
levies and structures of that nature. With HUD's involvement in 
mitigation, what does mitigation mean to HUD in terms of these 
funds?
    Secretary Carson. It means when you repair and 
rehabilitate, you do it----
    Senator Capito. Your housing? You're speaking about here 
buildings?
    Secretary Carson. It can be housing, it can be trenching 
waterways, and it can be a whole series of infrastructural 
things as well. But you do it in a way that gives you 
resistance when that situation arises again.
    Senator Capito. So I guess just in terms of clarification 
in terms of the funding that's going to be coming and the 
ability for the State to use this funding, I just want to 
clarify with you now, when you mention trenching, you are 
saying that HUD dollars can go to waterways and other ways if 
that's the mitigating factor in terms of preventing the next 
flood.
    Secretary Carson. Absolutely. Mitigation funding is meant 
to be flexible so that it can--because it's going to be 
different in each location.
    Senator Capito. Well, that's actually very good news for 
where we live. We have a lot of hills and valleys, and our 
valleys lots of times are creeks and other things that feed our 
larger water--our rivers, and get so jammed up with debris and 
other things----
    Secretary Carson. Absolutely.
    Senator Capito [continuing]. That that becomes the problem. 
Rather than the amount of rainfall, there's no place for it to 
go.
    Secretary Carson. Absolutely.
    Senator Capito. And so that's an issue.

                                OPIOIDS

    Another issue for us in the State is opioid and opioid use. 
And we have the highest rate of deaths resulted from overdose 
than any other State in the Union. And it's a troubling, tragic 
thing for all of us, and particularly in my State. What is HUD 
doing to try to coordinate with other entities and also on the 
ground with housing authorities to help in this issue?
    Secretary Carson. Well, as you know, you know, the 
President declared it a national health emergency.
    Senator Capito. Right.
    Secretary Carson. And we have a multiagency council 
focusing on it. One of the things that HUD is doing is 
providing significant funding, over $505 million, in the 
Continuum of Care program devoted toward people who have 
substance abuse problems. We also recognize that prevention is 
a key part of it. And through things like the Envision Centers, 
providing or disseminating information that will help people to 
recognize the consequences of what's going on before they get 
involved, I think will make a huge impact.
    Senator Capito. Thank you.
    Thank you very much.
    Senator Collins. Thank you, Senator.
    Senator Murphy.

                         CRUMBLING FOUNDATIONS

    Senator Murphy. Thank you very much, Madam Chairwoman.
    Welcome, Mr. Secretary. Mr. Secretary, I wanted to bring to 
your attention a really pressing issue in Connecticut that I 
know the Department is aware of, but I don't know whether or 
not there's a way to get you more involved in it, and that is 
an issue in Connecticut that has come to be known as crumbling 
foundations. We have in our State up to 34,000 homes that were 
made with a faulty kind of foundation due to the presence of a 
mineral called pyrrhotite, and it's caused these foundations to 
slowly fall apart.
    Insurers refuse to make good on claims because it is a very 
sort of long-lasting problem that doesn't happen all at once. 
FEMA has twice denied our Governor's request for Federal 
disaster declaration. As I said, we're talking about 35,000 
homes in Connecticut. And our worry, given that this was a type 
of foundation that was built potentially throughout the region 
over a period of 10 to 15 years, is that there could be many 
other States that are subject to this problem as well.
    I wanted to bring it to your attention and ask that you and 
I have a further dialogue about it to see if there are some 
creative ways that HUD and HUD's expertise could help us deal 
with this problem going forward. Part of the issue is that the 
manufacturer of the concrete didn't violate the law because 
there were really no regulations regarding the kind of 
materials that you put into it.
    So I wanted to get your commitment to have a further 
conversation about it to hear some of my ideas on how HUD could 
be helpful and to see if there are ways that we can work 
together.
    Secretary Carson. That problem was actually recently 
brought to my attention by the staff. We've already started 
focusing attention on that. It's a very valid issue. And, yes, 
we will be very happy to work with you on that.
    Senator Murphy. Great. And I would be, of course, happy to 
host you in Connecticut at some point to take a look at this 
problem for yourself.

                              SECTION 811

    Second, I wanted to turn to some good news in the fiscal 
year budget, which is a fairly dramatic increase in 811 
Mainstream vouchers, which are supportive housing vouchers. 
There is $505 million in this budget, it's an increase of $385 
million from fiscal year 2017. It's good news, but it's also a 
challenge for the Department to be able to get those vouchers 
out the door in a short period of time.
    And so my question is twofold: one, what steps are you 
taking to make sure that those vouchers get to the people that 
need them as soon as possible; and, B, have you thought about 
ways to perhaps target some individuals who both have mental 
illness and substance abuse? Is there a way to use these 
housing vouchers to perhaps assist in other efforts underway to 
try to tackle the opioid epidemic?
    Secretary Carson. Well, we're looking for every way 
possible to cut down on the regulatory burden to get the 
vouchers to where they need to be much more quickly. Also, as I 
mentioned before, we're going to make every effort to use every 
dollar that has been allocated efficiently. This is going to be 
the first opportunity in a number of years to provide some 
additional units for the elderly. Without question, we're going 
to be doing that.
    And when it comes to substance abuse among the elderly, 
it's a much more significant problem than anybody had thought 
until recently, primarily because of the prescription drug 
problem, and we're working on that as well.
    Senator Murphy. Great.
    Thank you, Madam Chair.
    Senator Collins. Thank you, Senator.

                        VA MORTGAGE MALFEASANCE

    Mr. Secretary, I'm very concerned about a business practice 
among a segment of mortgage lenders known as home loan 
churning. And what is happening is these mortgage lenders are 
targeting VA loan programs with an onslaught of mortgage 
refinancing offers, and often our veterans and military 
personnel are being convinced to refinance over and over again 
a loan in a single year, which has no financial benefit to 
them, and, indeed, is costly to them by the time they pay the 
additional fees. In fact, the fees attached to the refinancing 
deals can often increase the overall loan amount. Ginnie Mae 
has described this behavior as, quote, borderline predatory in 
nature.
    Could you update our subcommittee on what efforts Ginnie 
Mae is taking to weed out these bad actors?
    Secretary Carson. Absolutely. And let me just mention we 
still don't have a Ginnie Mae president. I'm just mentioning 
that.
    Senator Collins. You're right bringing up these 
appointments.
    Secretary Carson. Ginnie Mae has sent out notifications to 
the nine lenders who were acting inappropriately, let's put it 
that way, and, you know, resolutions are well underway. Two of 
them, you know, are in a place where they've been relegated to 
doing only, you know, custom pools because they can no longer 
be included in the benefits that Ginnie Mae offers. And, you 
know, I think this is well accepted. We've already seen an 
uptick in Ginnie Mae securities. People like what they see.
    Senator Collins. Good. I'm very glad to hear that because 
it's such unacceptable behavior----
    Secretary Carson. It is, particularly with our veterans.
    Senator Collins. Exactly.
    Secretary Carson. Yeah.
    Senator Collins. And for them to be allowed to participate 
in the VA lending programs is just--and in Ginnie Mae is just 
not appropriate.
    Secretary Carson. Right.

                              HOMELESSNESS

    Senator Collins. For the first time in 7 years, the 
nationwide rate of homelessness actually rose last year, and it 
rose by double the national amount in my State of Maine. And I 
was both surprised and disheartened by that increase because 
we've made reducing homelessness a real priority both for the 
Department and for this subcommittee.
    Now, most of the nationwide increase we found is 
concentrated in a few large cities, and it's really an 
affordability issue. But I can tell you from personal 
experience that even smaller cities, like Bangor, Maine, and 
Portland, Maine, are seeing a growing number of people living 
on the streets, and we're seeing situations where shelters just 
can't take in any more people. They're setting up cots in 
Portland City Hall to try to make sure that people have 
shelter.
    We know that the Housing First model has been successfully 
used to reduce homelessness in many communities, and that the 
Department's embrace of the solution of Housing First has not 
only allowed us to improve lives, but it also saves taxpayer 
dollars. You see that there are far fewer calls to the police, 
that there are far fewer trips to the emergency rooms if people 
have shelter and an apartment that they can come home to each 
day. So recognizing that, I believe the Department and this 
subcommittee both agree that Housing First is sound policy.
    Do you have any thoughts on other actions that the 
Department can take to respond to this recent spike in 
homelessness?
    Secretary Carson. Sure. Well, first of all, the Point-in-
Time was conducted in January of 2017 and looks at the year 
2016, and the spike appears to be bicoastal in nature. 
Actually, if you look at the middle of the country, 
homelessness continues to go down. Many communities are 
claiming victory over homelessness, particularly with our 
veterans. But the places where it is spiking, it's very, very 
troubling because a lot of the cost of housing is going up 
faster than people's income.
    What we're really doing is looking at the homelessness 
programs, and there are a lot of them. You know, we support 
through Continuum of Care more than 7,000 homeless programs, 
but we like to look at the results, not the longevity or legacy 
of the program, but what kind of results are they getting? And 
then to support those programs. And the Housing First model 
seems to work quite well, particularly when you add to it 
Housing Second and Third. Housing First, you get them off the 
street; Housing Second, you diagnose why they were there in the 
first place; and Housing Third, you fix it if you can.
    Of course, there are those individuals who are disabled, 
who are mentally incapable of caring for themselves, who are 
very elderly. I think as a compassionate society, we just have 
an obligation to take care of those people in the most 
efficient, effective way that we can.
    Senator Collins. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Madam Chairman.

                                  LEAD

    Mr. Secretary, we all understand the effects of exposure to 
lead-based paint hazards, and you have a perspective on this 
matter which is unique, as a very skilled and recognized 
physician. We included $25 million in fiscal year 2017 for 
grants to public housing agencies to address the lead-based 
paint hazards. When can we expect these grants to be awarded? 
And do you expect, based on the demand you've seen already, 
that there will be a need for additional investment in fiscal 
year 2019?
    Secretary Carson. Well, thank you very much for that 
allocation; it helps. It's being distributed through a 
competitive process, and that has been put in place now, so we 
should see the dissemination in a very short period of time. Do 
we need more? You know, as long as we have, you know, the lead 
problem, we do need more. Of course, you know, I go back to the 
tension that exists between the future and the present, but 
whatever we have, we're going to take care of as many people as 
we possibly can.
    Senator Reed. No, I appreciate that. One point is there's 
not only tension between the present and the future, but also 
between expenditures and revenue. If you cut expenditures and 
revenue simultaneously, you might not solve the problem. Both 
sides of the ledger have to be addressed.

                         HOUSING AFFORDABILITY

    Let me quickly switch gears if I can, Mr. Secretary, and 
amplify what the Chairman said. There's not only a homelessness 
crisis; there is also an affordability crisis throughout the 
country for housing. We see it acutely in Rhode Island, and 
it's affecting everybody. People aren't able to buy homes. 
People are now being squeezed out of the rental market because 
the rents are going up so much. It's particularly difficult for 
seniors because many are retired and living on fixed incomes. 
What strategy do you propose to employ to create and develop 
more effective elderly housing, particularly in places such as 
Rhode Island, which has a significant elderly population, that 
lives on fixed incomes.
    Secretary Carson. Well, in our Innovations Division is 
looking at different models, not just in this country, but in 
other countries as well. You know, sometimes it may mean shared 
common spaces, you know, with your own private bedroom, similar 
to some of the things that we see in universities. And it 
becomes increasingly important because we're getting to a point 
where a lot of the baby boomers are going to retire, a lot of 
them should have retired already, but they couldn't because 
they didn't have the financial wherewithal to do so, and 
they're not going to develop it either. So we are going to have 
to come up with things that actually work, and it's going to 
have to be innovative.
    Senator Reed. I was recently with Senator Nelson in 
Melbourne, Florida. We were dedicating a facility that had been 
renovated with support from HUD and private investment, and 
there was a woman who spoke so eloquently about--she didn't 
disclose who it was initially--someone who worked hard all of 
her life, raised kids, but, in a tough market, was vulnerable 
to any type of setback. Her home was destroyed by a storm in 
Florida, and she actually lived in a tent where she couldn't 
refrigerate her insulin--and I don't have to point out to you 
the effects, Doctor----
    Secretary Carson. Yeah.
    Senator Reed. She found herself in a situation where she 
had to be rushed to the hospital. She was desperate, and she 
was someone who her entire life had done all she could, she 
played by the rules, et cetera. Mercifully, there was someone 
there that was able to connect her with this subsidized 
housing. She was a senior, and she's now in a place where she 
can literally survive. We've got so many of those cases out 
there, and we have to do a lot more. So, again, I do recognize 
your argument of the future versus the present and the next 
generation, but there are some compelling needs that we can and 
must fulfill. I salute the Chairman for her great effort in 
putting a budget together last year that at least goes part of 
the way to making sure we fulfill this obligation.
    Secretary Carson. Sure.
    Senator Reed. Thank you, Mr. Secretary.
    Secretary Carson. And I do appreciate that very much. And I 
would just add that the third component is creating a pathway 
to self-sufficiency. If we put all those things together, I 
think we'll be successful.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you, Madam.
    Senator Collins. Thank you very much, Senator Reed. It's 
always been a pleasure to work with you and develop these joint 
funding bills, which really is the way that it should be.
    And we look forward to working with you, Mr. Secretary, as 
the appropriations process continues.
    Secretary Carson. Thank you.
    Senator Collins. I very much appreciate your being here 
this afternoon. And we look forward to working with you and 
your staff.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for additional 
questions until next Friday, April 27, 2018. I had a few that I 
didn't get to myself.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Susan M. Collins
       reduced funding for section 8 voucher administration fees
    Question. Mr. Secretary, many Public Housing Agencies, including 
those in Maine, have expressed strong concerns with the proposal to 
reduce funding for Section 8 voucher administrative fees to only 70 
percent of their needs in the 2019 budget request. Use of these funds 
includes waitlist management, eligibility determination, income 
verification, voucher issuance, participant orientations, and 
inspections. Lack of funding will lead to reduced staff at P.H.A.s and 
prevent them from issuing vouchers and assisting low-income households 
find housing.
    In light of the reduced funding request for administrative fees, 
what steps is HUD taking to reduce the burdens and costs of 
administering this critical source of rental assistance?
    Answer. As part of its implementation of the Housing Opportunities 
Through Modernization Act of 2016 (HOTMA), the Department will issue a 
proposed rule that includes provisions that are intended to streamline 
and reduce burden for PHAs. For example, HUD is proposing streamlined 
requests for exception payment standard (EPS), reduced reporting 
requirements, flexibility on establishing utility allowances, and 
allowing alternative methods for the confirmation of the repair of 
noted Housing Quality Standard deficiencies. These provisions will 
complement HUD's 2016 Streamlining Notice (Notice PIH 2016--05), which 
simplified the processes associated with the annual reexamination of 
income, the earned income disregard calculation, and family declaration 
of total assets; streamlined utility reimbursements; and provided the 
ability to employ biennial HQS inspections.
                              fha-it fees
    Question. Mr. Secretary, you referred to the need for additional 
investments in the Federal Housing Administration's information 
technology systems. Concerns regarding F.H.A. and HUD's I.T. more 
broadly, including cybersecurity, have been expressed by the Inspector 
General's office as well as G.A.O. In response to these needs, the 
budget proposes to charge mortgage lenders a $25 fee for each mortgage 
insured by F.H.A. The budget estimates this fee will raise $20 million 
per year over the next 4 years for F.H.A.'s I.T. improvements.
    Has HUD identified which critical I.T. investments these funds 
would be used for?
    Answer. The requested FHA Single Family IT Fee of $20 million per 
year over 4 years would generate $80 million to modernize critical FHA 
systems, improving risk management and data integrity. The funding 
would allow for an update to the systems for FHA origination, 
underwriting, servicing, asset management, and counterparty management 
activities. The updated systems would allow FHA to align with approved 
lenders by complying with modern mortgage industry standards and would 
help protect the Mutual Mortgage Insurance Fund by providing front-end 
risk assessment prior to endorsement. In addition, it would allow FHA 
to decrease its maintenance costs over time, supporting a shift to 
modern programming languages and systems management.
    FHA Single Family also has several short-term needs that will allow 
the Department to update urgent IT security needs, resolve audit 
findings and implement critical policies.

                               FHA Single Family Information Technology Priorities
----------------------------------------------------------------------------------------------------------------
                  Project                        Capability to be Realized       Cost Estimate    Time to Build
----------------------------------------------------------------------------------------------------------------
FHA Insurance Originations Network of       FIONA implementation will increase     $43 Million          3 years
 Applications (FIONA).                       FHA's efficiency, reduce costs,
                                             improve data analytics and risk
                                             management, strengthen the
                                             security of sensitive PII and
                                             keep FHA in sync with the larger
                                             mortgage industry..
----------------------------------------------------------------------------------------------------------------
Single Family Asset Management Roadmap....  Single Family Asset Management IT    $26.7 million          3 years
                                             Modernization will enable
                                             improvements in Real Estate Owned
                                             (REO) disposition and the overall
                                             claims management process..
----------------------------------------------------------------------------------------------------------------
FHA Lender Activities System Migration,     Automate the enforcement business     $7.3 Million           1 year
 Mortgagee Review Board Integration &        processes and integrate the
 Enforcement Automation.                     activities of the Mortgagee
                                             Review Board into a consolidated
                                             lender oversight technical
                                             infrastructure..
----------------------------------------------------------------------------------------------------------------


                            FHA Single Family Short-Term Information Technology Needs
----------------------------------------------------------------------------------------------------------------
                  Project                        Capability to be Realized       Cost Estimate    Time to Build
----------------------------------------------------------------------------------------------------------------
FHA Condominium Policy Update Systems       Modifications to specific systems     $1.8 Million           1 Year
 Modifications for Compliance.               (e.g., CHUMS) to comply with
                                             changes once the FHA Condominium
                                             Policy Updates go into effect..
----------------------------------------------------------------------------------------------------------------
FHA System Interface with Treasury's Do     The creation of an interface              $500,000           1 Year
 Not Pay System.                             between FHA's Origination System
                                             and Treasury's Do Not Pay system.
                                             This will provide lenders and
                                             Housing with the data to
                                             determine eligibility for
                                             borrowers who are delinquent on
                                             child support payments subject to
                                             Federal offset. This interface
                                             will be in addition to the
                                             existing CAIVRS interface which
                                             will remain in place..
----------------------------------------------------------------------------------------------------------------
Update FHA Origination Systems for HUD IT   Updates and enhancements to           $1.4 Million           1 Year
 Security Policy Compliance.                 existing FHA IT systems to ensure
                                             security compliance. This allows
                                             FHA to resolve an outstanding
                                             audit finding. This will also
                                             upgrade CAIVRS system to collect,
                                             log, and generate audit logs,
                                             which will satisfy the security
                                             audit finding..
----------------------------------------------------------------------------------------------------------------
Reverse Mortgage System Enhancements......  Enhancements to the Reverse           $1.5 Million           1 Year
                                             Mortgage System will allow FHA to
                                             improve the management of HECM
                                             portfolio..
----------------------------------------------------------------------------------------------------------------

                                ------                                

                Questions Submitted by Senator Roy Blunt
               fha--property assessed clean energy (pace)
    Question. Last year HUD, through Federal Housing Administration, 
made the decision to stop insuring mortgages with Property Assessed 
Clean Energy (PACE) assessment.
    Can you share the feedback that the agency has received on this 
decision?
    Answer. The agency has generally received positive feedback on this 
decision and recognition that such a position is consistent with 
requirements of other market participants.
    Question. What, if any impact, will it have on decisions that 
states have made regarding property taxes and PACE?
    Answer. While it is not clear if FHA's decision has or will have a 
marked effect on decisions by states regarding PACE, states may 
consider this action when determining whether to move forward with 
legislative plans for PACE or adjust any current PACE programs.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                                cdbg-dr
    Question. HUD recently announced the largest release of CDBG-DR 
funds ever in the history of the program.
    What is the timeframe for the actual release of these funds?
    Answer. The $28 billion of CDBG-DR funds appropriated on February 
9, 2018 included funds for addressing unmet recovery needs from 2017 
disasters and mitigation purposes. HUD will publish several Federal 
Register Notices describing how grantees can access and use the funds. 
The publication of the Federal Register Notice for the $18 billion in 
unmet recovery needs is projected for June 2018. The Department 
anticipates the publication of the Federal Register Notice for the 
CDBG-DR mitigation funds in the Fall of 2018.
    To access the CDBG-DR funds, grantees must submit an action plan to 
HUD that describes how they will use the funds. The grantees must also 
provide documentation that will enable HUD to certify to their 
financial proficiency and capacity. After HUD reviews the proficiency 
and capacity documentation and approves the Action Plan (within 45 days 
of receipt of Action Plan), HUD will execute a grant agreement.
    Question. Are the regulations already in place, or are they still 
being developed?
    Answer. All CDBG-DR grantees must submit an action plan to HUD that 
describes how they will use the funds and also provide documentation 
that will enable HUD to certify to their financial proficiency and 
capacity. After HUD reviews the proficiency and capacity documentation 
and approves the Action Plan (within 45 days of receipt of Action 
Plan), HUD will execute a grant agreement for the appropriated funds.
                         disaster--puerto rico
    Question. In regards to Puerto Rico, most of the media attention 
has been focused on the restoration of electricity, but equally 
important have been the efforts to restore the communication 
infrastructure on the island.
    Will CDBG funds be available for the continued restoration of 
broadband and other telecommunication technologies?
    Answer. The Department believes broadband and telecommunications is 
a critical party of recovery. CDBG-DR grantees are required to include 
installation of broadband infrastructure in any CDBG-DR funded 
substantial rehabilitation or new construction of a building with more 
than four rental units, unless generally infeasible. Further, CDBG-DR 
funds may be used to assist small businesses consistent with the 
requirements set forth in HUD's February 9, 2018 Federal Register 
notice.
    Question. Do you feel that the government of Puerto Rico has 
established the right protocols to receive the billions of dollars 
appropriated in the recently passed storm supplemental?
    Answer. Public Law 115-123 which includes the $18 billion 
allocation to Puerto Rico, requires the Secretary to certify that the 
grantee has in place proficient policies and procedures prior to 
obligating the CDBG-DR grant, including:

    1. For financial controls and procurement processes;

    2. To prevent the duplication of benefits;

    3. To ensure the timely expenditure of funds;

    4. To maintain a comprehensive disaster recovery web site; and

    5. To detect and prevent waste fraud and abuse.

    HUD implements this direction by requiring grantees to submit 
policies and procedures in each of the statutory areas cited above, but 
also requires grantees to provide a legal opinion as to the proficiency 
of the procurement processes, the grantee's most recent consolidated 
financial report (CAFR), and the grantee's assessment of its own 
financial standards, using the Department's Financial Management and 
Grant Compliance Certification criteria. If the grantee cannot 
demonstrate proficiency, HUD will not issue a grant agreement. However, 
HUD will also provide technical assistance to grantees to build the 
capacity necessary.
    Question. What, if any, controls do you have in place to ensure 
this $18 billion is administered to the People of Puerto Rico in an 
efficient and productive manner?
    Answer. Public Law 115-123 also requires the Department to design 
and implement an internal control plan to address known internal 
control risks related to disaster funding provided under the act. The 
Internal Control Plan describes HUD's additional controls for this 
appropriation (implemented post-Hurricane Sandy) including revised 
policies to require high risk grantees to enter supporting 
documentation for grant draws and increasing the frequency of HUD 
voucher reviews, decreasing the of draw-down amount that would trigger 
HUD review before payment for high risk grantees, and requiring HUD-OIG 
fraud prevention training for all grantees.
    HUD will also continually review capacity. If HUD determines that 
the grantee has not carried out its CDBG-DR activities and 
certifications in accordance with HUD requirements, HUD will determine 
whether the grantee has capacity to carry out its activities and apply 
corrective or remedial actions, which may include termination, 
reduction, or limitation of CDBG-DR payments.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                             moving to work
    Question. The Moving to Work (MTW) program is a demonstration 
program for Public Housing Authorities (PHA) that allows an innovative 
use of Federal dollars to meet a community's unique housing needs.
    Are there common successful strategies coming out of the MTW 
program across participating PHAs? What does the Department of Housing 
and Urban Development see as the future of MTW?
    Answer. The vision for the MTW program is to learn from 
participating PHAs' experiences to improve the delivery of federally 
assisted housing and promote self-sufficiency for low-income families 
across the nation. As a next step toward this goal, HUD is developing a 
program delivery model for the MTW expansion, informed by public input, 
that standardizes a menu of MTW flexibilities for the new participating 
PHAs and simplifies and streamlines HUD oversight. The MTW expansion is 
paired with a rigorous demonstration that will test specific 
flexibilities.
    Over the years, HUD has taken several steps to identify promising 
approaches of MTW interventions. In 2015, HUD engaged the Urban 
Institute to conduct a retrospective, third-party evaluation of the MTW 
Demonstration Program. We expect to have the results of this research 
by the end of 2018. This evaluation will look back on the over 20-year 
history of MTW and seeks to answer the questions: What can we learn 
from MTW initiatives about how to deliver Federal housing assistance to 
achieve the goals of cost efficiency, client self-sufficiency, and 
increase housing choice? What are the risks and opportunities inherent 
in MTW flexibility? How has the housing assistance provided by MTW 
agencies changed over time? While answering these questions with 
incomplete historical data is difficult, the Urban Institute has 
conducted a comprehensive review of available information to inform the 
future of MTW.
    HUD has already identified several successful MTW strategies that 
are now available to all public housing authorities. In recent years, 
Congress has directed HUD--first, in the Appropriations Act of 2014 and 
then in the Housing Opportunity through Modernization Act of 2016 
(HOTMA)--to make changes to its programs to reduce the regulatory 
burden on public housing authorities and associated costs, as well as 
give agencies more flexibility in how they serve their communities. In 
response, HUD published the Streamlining Rule (PIH Notice 2016-05), and 
has published or plans to publish various HOTMA implementation Notices. 
Many of these Congressionally directed changes came from common and 
successful activities implemented by many PHAs in the MTW 
demonstration.
    The following provisions in the Streamlining Rule were first 
implemented by MTW agencies: self-certification of assets under $5,000; 
biennial unit inspections and/or alternate inspections for HCV and PBV, 
HQS re-inspection fee, and increase of payment standards (120 percent) 
for the reasonable accommodation of persons with disabilities.
    The following HOTMA provisions were first implemented by MTW 
agencies: less frequent income recertification for those on a fixed 
income, increased Project Based Voucher (PBV) total units allowed in a 
PHA portfolio from 20 percent to 30 percent, increased PBV project unit 
cap within a development to the greater of 25 percent or 25 units per 
project, owner-maintained site-based waiting lists for PBV, creation of 
a Capital Fund replacement reserve, and allowing up to 20 percent of 
the Operating Fund to be transferred to the Capital Fund.
    The Department continues to propose innovative MTW initiatives for 
all public housing authorities. Several of the provisions in the Making 
Affordable Housing Work rent reform proposal have been implemented by 
MTW agencies: changing the rent calculation from adjusted to gross 
income; less frequent income recertifications; delineating work-able 
from elderly and disabled renters; providing alternative rent options, 
including tiered, stepped and additional choice rents; and work 
requirements.
    Finally, through the MTW expansion, 100 MTW agencies will be 
designated by cohort over 7 years. As required by the 2016 
Appropriations Act, HUD will study certain policies, based on the 
advice of a Federal Research Advisory Committee. HUD convened the 
Committee several times in 2016 and 2017, and based on the Committee's 
advice, HUD will study the following policy changes through the MTW 
expansion: MTW as a flexibility, rent reform, work requirements, and 
landlord incentives.
    Lessons learned from the current and soon-to-be designated MTW 
agencies will be used to inform future policy making.
    Question. Can MTW be expanded to areas with low Public Housing 
Assessment System (PHAS) or the Section Eight Management Assessment 
Program (SEMAP) scores on physical indicators that result from a 
reduction of capital fund dollars? Often these PHAs have demonstrated 
their managerial and financial ability and could benefit from MTW in 
spite of their capital challenges.
    Answer. HUD can only designate additional agencies as MTW agencies 
through the direction of Congress. Historically, Congress has assigned 
both low-performing and high-performing agencies to participate in the 
MTW demonstration program. The current expansion detailed in the 2016 
Appropriations Act authorizes HUD to expand the MTW demonstration 
program by an additional 100 agencies and provides that the agencies 
selected must be high performers in either the Public Housing 
Assessment System (PHAS) or the Section Eight Voucher Management 
Assessment Program (SEMAP), meet certain size and site selection 
requirements, and represent geographic diversity across the country. 
Therefore, to be selected for the current expansion, agencies need to 
be high performing in either the public housing or voucher programs.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
                              cdbg funding
    Question. As you know, the president's budget proposes eliminating 
funding for the Community Development Block Grant (CDBG). While I 
understand the need to reign in our debt and deficit, I worry that many 
communities in North Dakota and across the nation that rely on CDBG 
will be losing a valuable tool which helps assist them with a variety 
of needs, including affordable housing for vulnerable and low-income 
individuals, economic development, and infrastructure.
    Also, within the CDBG program is the Indian Community Development 
Block Grant (ICDBG), which has been a valuable program within our 
reservations.
    How can we ensure that communities will continue to have Federal 
support that will enable them to adequately address the challenges they 
face locally?
    Answer. HUD believes states and local governments are uniquely 
situated to engage public, private, and philanthropic partners and to 
coordinate efforts to effectively address affordable housing and 
community development needs within their jurisdictions.
    Question. Does the administration support proposals that would help 
foster the types of community development projects and activities that 
are currently supported through CDBG?
    Answer. Given a consistently constrained Federal budget, improving 
access to private investment for affordable housing and infrastructure 
improvements in communities suffering from chronic dis-investment is 
key to improving housing availability and promoting community 
development. Opportunity Zones offer a channel for private investment 
to flow into state-designated areas in which tax-advantaged private 
equity can catalyze community development, including mixed use and 
housing projects. The Department is working with the Department of 
Treasury to understand the emerging Opportunity Zone requirements and 
to consider how to align available HUD resources to best support 
investment in designated Zones.
    Question. It is my understanding that the president's budget 
request calls for certain affordable housing programs be turned over to 
state and local governments. How do you envision such a transition will 
take place, and have you given consideration to the fiscal challenges 
that state and local governments could face in finding the necessary 
means to fund these projects?
    Answer. The Budget does not call for individual programs to be 
turned over, but rather devolves the broad responsibility, allowing 
state and local governments to craft programs that fit with their 
unique local community development needs and resource constraints.
                            jeremiah program
    Question. Recently, a Minnesota-based nonprofit called the Jeremiah 
Program opened a new 20-apartment affordable housing facility for 
single mothers in Fargo, North Dakota. In the spirit of hope, its 
founders created the Jeremiah Program to be about so much more than 
just housing. The Jeremiah Program helps single mothers and their 
children get out of the cycle of poverty by making available to mothers 
the tools necessary to excel in education, career, and life as well as 
providing access to early education for their children.
    Programs like these in North Dakota and across the country can 
serve as effective models to follow and emulate. I would like to invite 
you to visit North Dakota at your convenience so that we can 
demonstrate to you the work being done in my home state at facilities 
like the Jeremiah Program.
    Will you commit to work with my staff to find a convenient time to 
visit North Dakota?
    Answer. Expanding access to affordable housing is a high priority 
for Secretary Carson. HUD staff will reach out directly to your 
congressional office to discuss a potential visit to the state of North 
Dakota.
                          homeownership rates
    Question. As Secretary of Housing and Urban Development, can you 
speak about specific policies you have promoted to help increase 
sustainable homeownership rates? How do you envision addressing 
challenges related to affordable housing moving forward?
    Answer. Fundamental to our mission at HUD is providing American 
families with opportunities to build equity in their homes and climb 
the economic ladder. FHA makes homeownership possible for millions of 
first-time, low-to-moderate income and minority borrowers. In order to 
serve families for generations to come, however, FHA must be 
financially and operationally sustainable, which means taking steps to 
protect taxpayers who stand behind its $1.3 trillion portfolio. That is 
why one of the first things this administration did was to suspend a 
planned premium reduction announced by the prior administration. Our 
analysis shows that had the premium reductions taken effect, the Mutual 
Mortgage Insurance Fund capital ratio would have fallen below FHA's 
statutory minimum capital ratio of 2.00 percent to 1.76 percent. We've 
also taken steps to put the Home Equity Conversion Mortgage (HECM) 
program on a more fiscally sustainable path, and further changes will 
be necessary. Since 2009, the HECM program has drained $14.5 billion 
from the MMIF. We must protect seniors who depend on HECM to age in 
place, while also ensuring that the homebuyers who depend on FHA's 
forward program and, ultimately taxpayers, do not have to bail out the 
HECM program. In addition, we've reversed a short-lived policy that 
allowed FHA to insure mortgages encumbered with Property Assessed Clean 
Energy (PACE) assessments. FHA took this action because PACE 
obligations represented a potential increase in losses for the MMIF due 
to the priority lien status of PACE obligations in the event of 
default. FHA remains concerned with PACE assessments that are placed on 
FHA loans after endorsement, and we are monitoring this practice to 
determine if further action is warranted. Finally, we have worked to 
educate Congress and the public on the need to upgrade FHA's technology 
platform, which creates serious financial and operational risks. Not 
only is it built on a 40-year-old mainframe system, but it is also 
heavily dependent on paper case files for endorsements and processing. 
FHA is developing a detailed roadmap to help guide our efforts, which 
we look forward to sharing with you, and has requested $20 million in 
budget authority for fiscal year 2019--fully offset by a modest fee of 
no more than $25 per loan--to begin needed implementation of an IT 
upgrade.
    With regards to affordability, HUD has been deeply engaged in the 
Administration's efforts to identify and remove unduly burdensome 
regulations that can increase costs to homebuyers and renters. One 
opportunity is condominiums--traditionally a mainstay of affordable 
housing for both the first-time homebuyer and seniors. We're in the 
process of revising our regulations on FHA insurance for condominiums, 
including project approval requirements. We anticipate that the updated 
condo project approval requirements and other changes to the 
regulations will make FHA policy more flexible, less prescriptive, and 
more reflective of the current market than existing requirements. HUD 
is also in the middle of a top-to-bottom review of its manufactured 
housing rules to assess their compliance costs and whether those costs 
are justified against the backdrop of the nation's shortage of 
affordable housing. Manufactured housing plays a vital role in meeting 
the nation's affordable housing needs, providing nearly 10 percent of 
the total single-family housing stock. It's estimated that more than 22 
million American households reside in manufactured housing.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                         lead safe housing rule
    Question. The fiscal year 2017 Omnibus required HUD to issue 
guidance to maintenance and property management staff of public housing 
agencies (PHAs) clarifying their obligations under the Lead Safe 
Housing Rule. The bill also required HUD to update guidance and amend 
regulations in order to incorporate zero-bedroom units under the Lead 
Safe Housing Rule and to make those same units eligible for HUD's lead 
hazard reduction grants.
    What progress has been made to update and issue guidance to PHAs 
and grantees on their duties to comply with new changes in law and to 
incorporate zero-bedroom units into Notices of Funding Availability?
    Answer. Regarding updating and issuing guidance to public housing 
agencies (PHAs) on their duties to comply with new changes in law, 
HUD's Office of Public and Indian Housing (PIH) and its Office of Lead 
Hazard Control and Healthy Homes (OLHCHH) issued updated Guidance on 
HUD's Lead Safe Housing Rule Pertaining to Elevated Blood Lead Levels 
for the Public Housing, Housing Choice Voucher, and Project-Based 
Voucher programs, on August 10, 2017 (the joint notice is posted at 
www.hud.gov/sites/documents/17-13PIHN_OHHLHC17-01.pdf). The guidance 
clarifies PHAs' obligations under the Lead Safe Housing Rule (LSHR; 24 
CFR 35, subparts B R), including specifying their obligation for their 
programs for that rule to cover zero-bedroom pre-1978 dwellings units 
in which one or more children less than 6 years of age reside or are 
expected to reside, reflecting the amendment of the Residential Lead-
Based Paint Hazard Reduction Act of 1992 (42 U.S.C. 4851-4856) (``Title 
X''), specifically of 4851b(27), by the Consolidated Appropriations 
Act, 2017, Division K, Title II, 237.
    OLHCHH issued policy guidance for its active lead hazard control 
grants on August 25, 2017, stating that zero-bedroom units in which one 
or more children less than 6 years of age reside or are expected to 
reside are eligible for enrollment in the grantee's program (guidance 
is posted at www.hud.gov/sites/documents/PGI-2017-
03.0BedroomUnits.pdf). Additionally, OLHCHH is including in its draft 
scope for its fiscal year 2018 lead hazard control NOFA, to be 
published this summer, that zero-bedroom units are eligible for 
enrollment, and will do so for future lead hazard control NOFAs.
    Finally, OLHCHH is drafting an amendment to the Lead Safe Housing 
Rule that will cover the amendment to Title X by changing the 
definition of ``target housing'' at 24 CFR 35.110. This amendment will 
incorporate zero-bedroom units in which one or more children less than 
6 years of age reside or are expected to reside into all HUD's housing 
assistance programs covered by the Rule.
    Question. In the fiscal year 2017 Omnibus, we directed HUD to 
improve its data collection and its analysis of actions, which PHAs are 
taking to comply with the Lead Safe Housing Rule, because HUD was 
unaware of how many subsidized units contain lead-based paint hazards. 
In order to effectively prevent incidences of elevated blood lead 
levels in HUD-assisted housing, we must know where lead-based paint 
hazards exist and intervene accordingly. Last month, you submitted a 
report to this Subcommittee on preliminary findings in public housing, 
but I would like to better understand your efforts across the assisted 
housing portfolio.
    What progress has HUD made to improve data collection and analysis 
on the scope of lead hazards in HUD-assisted housing?
    Answer. The Office of Public and Indian Housing (PIH) has continued 
to work with PHAs identified as possibly lacking lead-based paint 
inspections for public housing properties. Additionally, PIH's Real 
Estate Assessment Center (REAC) sends regular reports to the Office of 
Field Operations identifying instances of peeling or deteriorated paint 
in pre-1978 public housing properties. This information is available to 
PHAs in their inspection reports and is also provided to HUD field 
offices to inform their monitoring and oversight of PHAs.
    PIH is also currently conducting the Uniform Physical Condition 
Standards for Vouchers (UPCS-V) Demonstration Program, to develop and 
evaluate an improved inspection standard that could be applicable to 
Housing Choice Voucher (HCV) units. As part of that demonstration, PIH 
is considering whether it is feasible for the reporting system to have 
the capacity for HUD to collect inspection-level details for all HCV-
assisted units.
    The Office of Multifamily Housing Programs (MF) is working with the 
Office of Strategic Planning and Management and the Office of Lead 
Hazard Control and Healthy Homes to explore how to track lead hazard 
evaluation and control in multifamily projects with project-based 
rental assistance units. Additionally, REAC sends regular reports to 
MF's Office of Asset Management and Portfolio Oversight identifying 
instances of peeling or deteriorated paint in pre-1978 multifamily 
properties. This information is available to multifamily owners and 
agents in their inspection reports and it is also provided to HUD field 
offices to inform their monitoring and oversight of owners and agents.
    Question. In February, EPA Administrator Scott Pruitt convened a 
meeting of the President's Task Force on Environmental Health Risks and 
Safety Risks to Children in order to discuss a coordinated Federal 
effort to combat lead poisoning.
    What is HUD's role on this task force, and how will this 
coordinated effort inform the Department's implementation of the 
directives to improve the oversight and enforcement of the Lead Safe 
Housing Rule, which were included in the fiscal year 2017 Omnibus?
    Answer. HUD is a member of the President's Task Force on 
Environmental Health Risks and Safety Risks to Children, and has been 
an active participant in its wide-ranging activities to protect 
children's health and safety since the Task Force's inception in 1997. 
Secretary Ben Carson was pleased to accept the invitation from Task 
Force Co-Chair Administrator Scott Pruitt to participate in the 
February 15th meeting on the Federal effort to combat lead poisoning. 
The Secretary joined with the other members in committing to expedite 
developing and implementing their own Departments' and Agencies' action 
plans to eliminate childhood lead exposures, and doing likewise for the 
coordinated Federal effort.
    As part of the coordinated Federal effort HUD will increase 
collaboration among HUD's offices involved with lead safety in its 
housing assistance programs, and prioritize collaborative efforts 
between HUD and partner agencies such as the Environmental Protection 
Agency (particularly its National Program Chemicals Division and its 
Office of Enforcement and Compliance Assistance) and the Centers for 
Disease Control and Prevention (particularly its National Center for 
Environmental Health/Agency for Toxic Substances and Disease Registry).
            u.s. interagency council on homelessness (usich)
    Question. Under the Trump Administration, the U.S. Interagency 
Council on Homelessness (USICH) has started working with Federal 
agencies to revise Opening Doors. HUD has also revised its own 
strategic plan, which includes a goal to reduce the average length of 
homelessness. However, it remains unclear how the revised Federal 
strategic plan and HUD's new strategic plan will complement each other 
or impact the recent investments in the fiscal year 2018 Omnibus to 
address homelessness among youth, veterans, and victims of domestic 
violence.
    How has HUD worked with USICH on this revised Federal strategy, and 
how will these changes impact your implementation of the new homeless 
assistance investments, which were provided in fiscal year 2018?
    Answer. Coordinating the Federal response to ending homelessness 
helps communities and their leaders more effectively and efficiently 
work to end homelessness by breaking down silos and supporting the 
integrated use of funding so that resources are not duplicated. As 
such, HUD has been working closely with USICH, other Federal partners, 
and communities to revise the Federal Strategic Plan to Prevent and End 
Homelessness.
    The revised Federal Strategic Plan will continue to be a focus on 
ensuring homelessness is a rare, brief, and one time experience and 
that states and communities are able to sustain an end to homelessness 
through proper intervention, assistance, and services. While the 
Federal Strategic Plan is still under interagency review, we anticipate 
the plan will be supported by areas of increased focus that include 
creating solutions for unsheltered homelessness, tailoring responses to 
rural communities, helping people who exit homelessness find employment 
success, and strengthening prevention and diversion practices. The 
goals identified in HUD's Strategic Plan align closely with this work 
and will allow fiscal year 2018 Homeless Assistance Grants funding to 
support a coordinated Federal response to ending homelessness.
    Over the next year, HUD intends to:

  --Roll out a Strategy to Increase Capacity of Rural Communities to 
        End Homelessness. Through this strategy, HUD will build 
        meaningful partnerships within HUD, with our Federal partners, 
        private partners, and communities to address the unique 
        challenges of rural areas, and roll out a technical assistance 
        plan focused on solutions to these challenges and building 
        capacity within rural communities. Additionally, HUD will 
        explore legislative fixes needed to better address the needs of 
        our partners in rural communities, while evaluating non-
        legislative barriers that are impeding efforts to address their 
        needs.

  --Implement an Encampment and Unsheltered Homelessness Initiative. 
        This initiative will enable HUD to work with communities that 
        have large numbers of people living in unsheltered locations to 
        respond and permanently house these individuals. It will also 
        enable HUD to deepen its understanding of the demographics, 
        characteristics, and needs of people experiencing unsheltered 
        homelessness and better utilize existing Homeless Assistance 
        Grant Program funding as a result. It will also further HUD's 
        work on ending chronic homelessness, something only three 
        communities have accomplished to date.

  --End Veteran Homelessness. HUD will continue to encourage Continuums 
        of Care (CoCs) to prioritize veterans experiencing homelessness 
        who are not eligible for Veterans Affairs (VA) services for CoC 
        resources. For veterans who are eligible for VA services, we 
        will continue to work with USICH and the VA to appropriately 
        utilize Veterans Affairs Supportive Housing (HUD-VASH) and 
        Supportive Services for Veteran Families (SSVF) resources for 
        veterans experiencing homelessness. This effort will include 
        working with Public Housing Authorities (PHAs) where HUD-VASH 
        vouchers have been underutilized to fully utilize those 
        resources.

  --End Youth Homelessness. HUD will implement the lessons learned from 
        its implementation of funding for the first two cohorts of 
        communities in the Youth Homelessness Demonstration Program 
        (YHDP) to implement fiscal year 2018 YHDP and carry the work 
        forward to 25 additional communities, helping them create and 
        implement a system that will end youth homelessness in their 
        community that is heavily informed by the voices of young 
        people with lived experience of homelessness.

  --Support Survivors of Domestic Violence. HUD intends to use the $50 
        million provided by Congress in fiscal year 2018 to serve 
        survivors of domestic violence, in part, to increase rapid re-
        housing resources dedicated to survivors, which is a critical 
        component of ensuring homelessness, when it occurs, is a brief 
        occurrence. This funding will also help communities end 
        homelessness amongst families.

                        housing for the elderly
    Question. The fiscal year 2018 Omnibus provided $105 million to 
construct new affordable housing for the elderly. It is essential that 
HUD use this funding effectively to develop safe, clean housing for our 
nation's seniors.
    What is HUD's target date to issue a Notice of Funding Availability 
for this funding, and how will HUD ensure that new quality affordable 
housing is developed in areas that need it most?
    Answer. HUD was provided $10 million in the 2017 Appropriations Act 
for either capital advances for new Section 202 Supportive Housing or 
Senior Preservation Rental Assistance Contracts (SPRACs). HUD has 
allocated $5 million for SPRACs, leaving $5 million for new capital 
advance awards. The 2018 Appropriations Act provided HUD an additional 
$105 million for new capital advance awards. The 2017 appropriation 
allowed HUD to conduct necessary research and prepare draft materials 
for issuing a NOFA for new capital advance awards. HUD is using a two-
NOFA approach to award the total amount designated for new capital 
advance awards.
    The first NOFA will be published later this fiscal year, making 
available the $5 million designated from the 2017 appropriation as well 
as a portion of the 2018 appropriated funds. The second, similar, NOFA 
for the balance 2018 funds will be published once the application 
period for the first NOFA ends. HUD anticipates publishing on 
Grants.gov notifications that both NOFAs will be available, with 
projected application deadlines, so that applicants will be aware of 
both funding opportunities. HUD tentatively anticipates that both of 
these notifications will be published in June 2018.
    This two-NOFA approach will allow HUD to award a portion of the 
funds quickly so that sponsors may begin construction on projects that 
are ready to proceed (first NOFA), while also allowing sponsors to 
apply for projects which require additional time to plan (second NOFA).
    HUD anticipates that analysis of the need for quality affordable 
housing for seniors, based on research provided by HUD's Office of 
Policy Development & Research, will be both a threshold and a scoring 
criterion in the NOFAs.
    The traditional capital construction model for the development of 
new senior housing can be costly. As our elderly population increases 
across the country, demand for additional affordable senior housing 
will rise, and it will be essential to identify effective methods for 
building new units.
    Initial evaluations of the Project Rental Assistance model within 
the Section 811 Housing for Persons with Disabilities program have 
shown promise in improving the effectiveness of developing new 
affordable supportive housing.
    Housing for the Elderly
    Question. The traditional capital construction model for the 
development of new senior housing can be costly. As our elderly 
population increases across the country, demand for additional 
affordable senior housing will rise, and it will be essential to 
identify effective methods for building new units.
    Initial evaluations of the Project Rental Assistance model within 
the Section 811 Housing for Persons with Disabilities program have 
shown promise in improving the effectiveness of developing new 
affordable supportive housing.
    Should the Project Rental Assistance model be utilized to increase 
the supply of affordable senior housing?
    Answer. HUD is still in the process of evaluating the 811 Project 
Rental Assistance program. The second phase of the evaluation, which is 
underway, will assess the effectiveness of this new model of housing 
assistance. The evaluation will assess the program's impact on 
participants' quality of life, housing, neighborhood, supportive 
services, and healthcare outcomes; and its cost compared to similar 
participants in four matched comparison groups. The four comparison 
groups are people served in the traditional Section 811 program, in the 
voucher program for Non-Elderly persons with Disabilities (NED), in 
other HUD programs, and Medicaid beneficiaries not assisted by HUD. We 
anticipate results from the Phase II evaluation to be released in April 
2019 and will explore their implication for senior housing as well as 
housing for persons with disabilities.
                           fha-it spend plan
    Question. In 2017, the HUD Inspector General reported on the 
Federal Housing Administration's (FHA) inability to effectively respond 
to changes in business processes as a result of outdated and 
unautomated information technology (IT) systems. As a result, we 
included $4 million in the fiscal year 2017 Omnibus to make 
improvements to FHA's IT systems and provided an additional $7 million 
in the fiscal year 2018 Omnibus to enhance HUD's cybersecurity. 
However, HUD has not submitted a plan to the Subcommittee on its 
intended use of this funding.
    What is the cause for the delay in submitting an IT spend plan on 
these necessary FHA and cybersecurity improvements, and when can we 
expect HUD to submit this plan to the Subcommittee?
    Answer. The timing for developing, preparing, reviewing and 
internally approving the fiscal year 2017 plan took longer than 
anticipated. The HUD Office of the Chief Information Officer 
collaborated closely and extensively with the Office of Housing and the 
Office of Public and Indian Housing to review alternatives and 
determine the best use of these funds in compliance with the statutory 
conditions in the appropriation. The fiscal year 2017 expenditure plan 
was submitted on May 30, 2018. We expect to submit the fiscal year 2018 
expenditure plan, including the $7 million for cybersecurity 
expeditiously. OCIO staff have discussed specific activities and will 
be positioned to make a final determination by June 2018. HUD 
anticipates submitting the fiscal year 2018 plan to Congress shortly 
thereafter.
                      sexual harassment in housing
    Question. As part of the 50th anniversary of the Fair Housing Act 
of 1968, the Department of Justice and HUD announced a new initiative 
to combat sexual harassment in housing, which will include sexual 
harassment training with public housing agencies (PHAs).
    What is HUD's strategy to deploy this training to PHAs, and how can 
other housing providers participate in these trainings? Additionally, 
how will HUD balance its obligations under the Fair Housing Act and 
this new initiative in order to combat sexual harassment in housing?
    Answer. HUD is working with a technical assistance provider that is 
developing training for various PHAs and private landlord audiences. 
HUD conducted the first training for PHA executive directors and 
commissioners on May 3, 2018. PHA employees and private landlords will 
be trained by the end of fiscal year 2018. This initiative will also 
provide educational information to PHA residents and Housing Choice 
Voucher participants regarding their rights and will be included in 
HUD's annual national media campaign.
    HUD anticipates tailoring training to other assisted housing 
providers in the future.
    The Fair Housing and Equal Opportunity (FHEO) Office of Enforcement 
and Programs (E&P) enforces the Fair Housing Act and is not responsible 
for conducting this training initiative. FHEO's Education and Outreach 
Division, in the Office of Policy, Legislative Initiatives and 
Outreach, is coordinating the PHA training and co-leading the 
Department of Justice's initiative. Through this coordinated effort, 
HUD hopes to prevent further harm and to ensure that victims of sexual 
harassment are aware of their right to file a Fair Housing Act 
complaint if victimized.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                              homelessness
    Question. Secretary Carson, the fight against homelessness remains 
my top priority as a member of this Subcommittee. I thank the Chairman 
and Ranking Member for continuing to be such strong allies in this 
fight, and I was pleased that we were able to increase investments to 
combat homelessness in the spending bill passed last month. I am 
particularly thankful for resources dedicated to assisting survivors of 
domestic violence who are experiencing homelessness.
    But my home state of Washington continues to face a difficult 
housing landscape. The City of Seattle and King County have been 
operating under states of emergency regarding homelessness since late 
2015, and other cities and communities in Western Washington are 
experiencing similar, sustained rent increases. In Central and Eastern 
Washington, new housing supply is just not being built fast enough to 
impact a near-zero vacancy rate.
    Our state government and local communities are stepping up by 
increasing their housing levies, implementing innovative strategies, 
and dedicating additional resources. HUD needs to be stepping up, too.
    Does the Administration recognize homelessness and a lack of 
affordability to be serious problems that require strong, coordinated 
action?
    Answer. HUD has been working strategically with its Federal, State, 
and local partners to identify how to more efficiently use existing 
resources and policies to improve housing affordability. As HUD is 
engaged in this collaboration, it has clearly communicated to 
communities that they should also forge strategic partnerships with 
homeless assistance and mainstream benefit providers within their 
communities. These relationships broaden the communities' understanding 
of the scope of the homeless community and what housing and services 
they need to end their homeless experience. This kind of cooperation 
allows communities to use existing resources in a more efficient and 
strategic manner. By shifting resources from lower performing projects 
and focusing on better prioritization of resources, individuals and 
families experiencing homelessness receive more tailored housing and 
services.
    In addition to encouraging communities to build robust local 
partnerships, HUD will continue to promote evidence-based policies. 
Housing First follows a basic principle--that everyone is ready for 
housing, regardless of the complexity or severity of their needs. Not 
only is there a strong body of research supporting this approach, HUD 
has seen that those communities demonstrating the greatest success in 
ending homelessness consistently report that they have implemented and 
received broad community support for a Housing First approach.
    Another proven strategy is targeting permanent supportive housing 
resources to individuals and families experiencing chronic 
homelessness. Research indicates that using permanent supportive 
housing to support the chronically homeless results in more long-term 
stability for clients and costs savings for communities, such as 
lowering the use of local institutions like jails and hospitals.
    Coordinated entry is another strategy that encourages a focus on 
the people being served while carefully using resources to end 
homelessness. Coordinated entry has opened doors for better 
coordination with homeless assistance providers as well as mainstream 
benefit providers. It also ensures that all people seeking assistance 
have equal access to opportunities and are assessed for services in the 
same way. HUD strongly believes that every person seeking assistance 
deserves the same opportunity as anyone else seeking services in the 
community and that communities should follow a well-documented 
prioritization process to ensure that resources are allocated fairly.
    HUD will continue to use performance to drive results as well. As 
communities use data to inform decisions about what projects to fund 
and for which homeless population--including where those funds should 
be spent--they are able to better use limited resources to serve 
individuals and families experiencing homelessness in a more meaningful 
way.
    The policies mentioned above are all evidence-based practices that 
have proven to be helpful for communities to better serve those 
experiencing homelessness in their areas, while using resources in the 
most efficient manner. HUD will continue to look for evidence-based 
practices and implement them as appropriate.
    Finally, HUD has a long history of creative public-private 
partnerships. Many projects today have a healthy blend of public and 
private supportive service options that often rely on local and State 
health and mental health services coupled with privately funded housing 
and employment specialists. Similarly, assistance with housing is often 
done in partnership with public housing authorities and other State and 
city resources along with non-profit housing developers and providers 
partnering to identify how to prioritize the housing and service 
resources to best meet the needs of individuals and families 
experiencing homelessness in their communities. These partnerships 
create critical leverage for maximizing the use of resources.
    Question. If so, how can this Administration continue to propose to 
cut HUD's budget by almost 15 percent and eliminate many programs that 
keep families housed, which would only make the homelessness crisis 
worse?
    Answer. HUD continues to work strategically with its Federal, 
State, and local partners to identify how to more efficiently use 
existing resources, despite limited resources.
    As HUD collaborates with partnerships and communities, we strongly 
encourage the use of strategic partnerships with homeless assistance 
and mainstream benefit providers within their communities. These 
relationships broaden the communities' understanding of the scope of 
the homeless community and what housing and services they need to end 
their homeless experience. This kind of cooperation allows communities 
to use existing resources in a more efficient and strategic manner by 
shifting resources from lower performing projects and to focus on 
better prioritization of resources. The end result is that individuals 
and families experiencing homelessness receive more tailored housing 
and services.
    Also, to encouraging communities to build robust local 
partnerships, HUD will continue to promote evidence-based policies such 
as Housing First, permanent supportive housing, and coordinated entry. 
Through these efforts and utilizing performance and data to drive 
results, communities can use limited resources to serve individuals and 
families experiencing homelessness in a more meaningful way.
                      fair market rent adjustments
    Question. Mr. Secretary, one of the issues I raised with you last 
year at your budget hearing was an ongoing difficulty in calculating 
accurate Fair Market Rents, particularly in the Puget Sound and other 
parts of my state experiencing record rent increases. I'd like to thank 
you and your staff for being responsive this year and for addressing 
this issue in a collaborative way with King County. It's very important 
that HUD continues to work closely with local housing authorities to 
make sure resources are directed most effectively
    Given that cities like Vancouver, Washington, Tacoma, and Seattle 
continue to see huge year-over-year rent increases, I know this will be 
an ongoing discussion to make sure the Department's numbers reflect the 
reality on the ground.
    Secretary Carson, will you commit to continuing to work together 
and to listen to Washington's housing authorities to make sure that 
Fair Market Rents and the Renewal Funding Inflation Factor accurately 
reflect local rent costs?
    Answer. HUD commits to working with all public housing authorities 
to produce accurate Fair Market Rents (FMRs) and to use the annual 
change in each area's FMR to produce accurate Renewal Funding Inflation 
Factors (RFIFs). Recently, HUD issued a notice seeking comments on 
potential RFIF methodology changes related to the use of ad hoc surveys 
and PHA-sponsored local rent survey data in calculating FMRs. HUD will 
continue to seek comments from all interested parties, including those 
PHAs that have engaged in a local survey program and those PHAs that 
have not supplied local survey data, to ensure that FMRs and RFIFs 
reflect local rent costs as accurately as possible.
                                hud-vash
    Question. The HUD-VASH program is a highly-targeted and effective 
tool to address the unique needs of our nation's veterans. I've heard 
from veterans in my home state who would not be able to get their lives 
back on track were it not for this program, so I was disappointed to 
again see the Department fail to request new funding for additional 
vouchers, particularly when HUD's own data showed a year-over-year 
increase in the number of homeless veterans nationwide for the first 
time since 2010.
    I know that VA is your partner in administering this program, and I 
will have some questions for that agency at its budget hearing. Late 
last year, a number of my colleagues and I wrote to former Secretary 
Shulkin to hold him accountable for a VA attempt to shift resources 
away from the important case management services that are essential to 
this program. Ultimately, we were able to get a clear statement that 
the HUD-VASH money would not be reallocated, but the prospect of these 
cuts was very troubling.
    Why does HUD continue to request no new resources for HUD-VASH? 
Does the Department think that we have met our obligation to our 
veterans, so no additional vouchers are necessary? Do you disagree with 
your Department's data that this problem has not been solved?
    Answer. The total number of homeless veterans has decreased by 
nearly 50 percent since 2010, and despite a 1.6 percent increase in the 
estimated number of homeless veterans based on the 2017 PIT count, most 
communities across the country showed a decline in veteran 
homelessness. Sharp increases in a few areas with extremely high 
housing costs led to the overall increase. Based on an analysis 
conducted jointly by HUD and the Department of Veterans Affairs (VA), 
it was determined that the turnover of existing HUD-VASH vouchers and 
the fiscal year 2017 appropriation of $40 million is sufficient to meet 
the current demand of VA referrals of veterans that are experiencing 
homelessness and require the intensive services and support of a HUD-
VASH voucher. Additionally, VA and HUD are currently working on a HUD-
VASH reallocation strategy to recapture vouchers from Medical Centers 
and PHAs that no longer have the need to support their existing HUD-
VASH resources and reallocate them to communities with increased need.
    Question. In working with the VA on this program, is HUD receiving 
the collaboration it needs for continued success? Has there been any 
interruption on the ground in the services VA provides to match with 
HUD's vouchers?
    Answer. The partnership between HUD and the VA for the 
implementation of HUD-VASH has been extremely successful. This is true 
at both the Headquarters level as well as the local level between HUD's 
housing agency partners and the local VA Medical Centers. Communication 
between the Departments is ongoing and we have regularly scheduled 
conference calls to resolve issues, analyze data to determine trends, 
discuss policy improvements, and plan for future allocations. As you've 
indicated, the VA case management services are a critical part of HUD-
VASH so in some cities where the VA has had difficulty in achieving 
full staffing levels or where there is a high attrition rate of case 
managers, referrals of veterans can be delayed, resulting in lower 
utilization rates.
                      ensuring adequate resources
    Question. Mr. Secretary, when we held this hearing last year, you 
had just recently begun serving as HUD Secretary, and you indicated 
that parts of the President's budget were determined before you were 
confirmed. This year, you must have been fully involved in developing 
the budget request, but it doubled down on cuts, asking for a funding 
reduction even larger than last year. With rents rising and an 
increased need for new affordable housing, I do not see how it is 
possible for HUD to fulfill its essential role with so few resources. 
The Department's request zeroes out or effectively eliminates a number 
of important programs, from CDBG to HOME, including the Public Housing 
Capital Fund that is used to maintain the public housing we already 
have.
    To solve problems of homelessness and affordability over the long 
term, we need to increase the number of affordable units. Affordable 
development requires a mix of public and private funds, collaborations 
that have been going on for a long time now. As I hear from many of my 
constituents working on this issue, pulling together these projects is 
not easy, but it is essential. The Low Income Housing Tax Credit is 
essential to getting private capital involved in these projects, but 
the Community Development Block Grant and HOME programs are also 
indispensable parts of the financing of so many affordable housing 
projects in Washington state. Yet the Administration proposes to 
essentially zero them out.
    I understand that 25 percent of Low Income Housing Tax Credit deals 
also have HOME dollars in them. Has HUD done any analysis on the impact 
your proposed cuts to HOME would have on the use of the Low Income 
Housing Tax Credit and affordable housing production more broadly?
    Answer. HUD has not conducted specific analysis of the impact that 
the elimination of the HOME Program would have on the viability of 
LIHTC projects. The Administration believes that, in the absence of 
HOME funding, states and local governments would create new funding 
mechanisms (e.g., state or local housing trust funds with dedicated 
funding streams) to provide gap financing for LIHTC projects.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                    uninhabitable conditions of phas
    Question. Secretary Carson, I know you are familiar with the man-
made housing crisis that the communities in Cairo and Thebes, IL, 
continue to feel the effects of. After decades of mismanagement and 
neglect, hundreds of people living in public housing in Alexander 
County, many of them children, were subjected to unimaginable living 
conditions. Their units overrun with rodents, bed bugs, roaches, crime, 
mold, asbestos, and lead. It has been more than a year since HUD told 
185 families that they must relocate from the Elmwood and McBride 
housing complexes in Cairo, Illinois, and around 35 of those families 
are still in the process of finding safer housing. This is a difficult 
task as the low housing inventory in the town means that many relocated 
residents will be forced to leave their community. And now, as of 
February, your Department announced that 28 families living in the Mary 
Alice Meadows and Sunset Terrace housing complexes in nearby Thebes, 
Illinois, also will be forced to find new housing. For at least one of 
the families currently living in Thebes, this will be their second 
relocation as they were first relocated to Thebes after being forced to 
leave their public housing unit in Cairo. The strength and resilience 
of these families and their communities in the face of this undeserved 
situation is inspiring. But I have a number of questions and frankly 
concerns about how HUD is handling the ongoing relocation effort. 
Senator Duckworth and I sent you a letter two weeks ago raising a 
number of concerns.
    When can Sen. Duckworth and I expect to receive a response to the 
concerns we raise in our letter?
    Answer. The Department provided a response on April 20, 2018, which 
is also attached here.

            U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
                       WASHINGTON, DC 20410-1000
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              APR 20 2018

The Honorable Tammy Duckworth
United States Senate
Washington, DC 20510

Dear Senator Duckworth:

    Thank you for your letter dated April 4, 2018, to Secretary 
Benjamin S. Carson Sr., regarding the operations of the Alexander 
County Housing Authority (ACHA). In your letter you asked a series of 
questions regarding the decision to relocate residents from the Mary 
Alice Meadows and Sunset Terrace public housing properties in Thebes, 
Illinois.

Thebes Living Conditions

    ACHA submitted an initial Section 18 inventory removal application 
to the Special Applications Center (SAC) for the 46 units in Thebes. 
The HUD ACHA team will continue to work with the SAC on finalizing the 
Section 18 application to have an approvable Section 18 inventory 
removal application. The Department's primary concern is with the 
health and safety of the residents and the ability to provide safe and 
decent housing for the HUD assisted residents. The decision to submit a 
Section 18 application was based on ACHA's financial situation and the 
ability to maintain the properties in acceptable physical condition, as 
well as the available resources to help relocate the families. Based on 
the physical needs and the amount of capital funds available to ACHA, 
it was determined the two Thebes properties are not viable and it would 
be more prudent to focus ACHA resources on maintaining the remaining 
155 units in ACHA's inventory in Cairo. The HUD ACHA team relied on an 
initial physical needs assessment of the entire property in December 
2015 completed by a local architectural firm and an additional limited 
rehabilitation assessment completed in September 2017 by another local 
engineering firm regarding the costs to rehabilitate ten vacant units 
at Thebes. These reports are enclosed.
    At the time of the Section 18 application there were 31 occupied 
units at Thebes and an additional four families had relocated from the 
Thebes properties since vouchers became available for Elmwood and 
McBride residents in 2017, bringing the maximum total number of 
households eligible for tenant protection vouchers at Thebes to 35.

Tenant Needs and Census

    ACHA's occupancy records indicate there are 31 occupied units at 
Mary Alice Meadows and Sunset Terrace. After on-site confirmation, 
three of those 31 units are vacant and/or abandoned, leaving 28 
occupied units. The 28 households are made up of 72 individuals, 39 of 
whom are children; 31 of those children are school aged between 6-18 
years of age.
    Based on interviews with the families residing at Thebes, 25 of the 
28 households have expressed a desire to relocate and are actively 
working with relocation staff; three of the 28 have been unresponsive 
to relocation outreach efforts. All 28 families have been made aware 
that they need to relocate. ACHA is offering units within Cairo at 
other ACHA public housing sites. ACHA has not set a final move-out date 
for the residents of Thebes and will work with each family individually 
to meet their relocation needs. Neither ACHA nor HUD staff have been 
made aware of any special circumstances or considerations needed for 
the households living in Thebes.
    Under the authority for the Section 18 application for Elmwood and 
McBride, Menard County Housing Authority (MCHA) was issued 238 TPVs for 
residents that lived in Elmwood and McBride up to 2 years prior to the 
decision to relocate those residents.
    Based on the availability and need for vouchers for the residents 
of Elmwood and McBride, MCHA has adequate TPV budget authority to serve 
all the affected residents at Elmwood and McBride and provide the 35 
vouchers necessary for the relocation of the Thebes residents. MCHA 
amended its Administrative Plan on February 13, 2018, to reflect the 
availability of existing TPV budget authority to serve the residents 
affected by the decision to relocate residents currently living in 
Thebes.
    ACHA also has an existing mobility contract with Quadel Consulting 
and Training, LLC that runs through June 2018 and HUD has a technical 
assistance contract with CVR and associates to assist ACHA with 
relocation services. Additionally, there is enough funding for 
relocation to serve the residents of Elmwood, McBride and those 
residing in the properties in Thebes. ACHA requested an amendment from 
HUD to use relocation budget authority to serve the residents of Thebes 
that has been approved. There are enough budget resources to 
successfully provide relocation and mobility services for all residents 
affected by the relocation of Elmwood, McBride, Mary Alice Meadows and 
Sunset Terrace. Relocation and mobility counselors have spent at least 
one day per week at Thebes to help support the relocation efforts for 
those residents and have scheduled multiple counseling sessions with 
Thebes families throughout the last few weeks at the Cairo main office.

Thebes Expression of Interest

    ACHA received no expressions of interest as result of the 
solicitation for the properties at Thebes. Based on the lack of 
interest, ACHA will proceed with a Section 18 application for inventory 
removal of the Thebes properties.

ACHA Transition

    HUD is engaging the local community regarding transition options. 
Options under consideration are returning ACHA to local control or 
transferring all remaining assets to a third-party entity. HUD staff 
continues to meet with the Alexander County Board to determine their 
interest and capacity to resume their role under Illinois statute. 
Based on these discussions, HUD will develop a detailed transition 
plan. Whatever option HUD determines to be the most effective ill 
provide a vehicle for administration and oversight of the demolition of 
the properties slated for inventory removal.

I hope this information is helpful.

                                           Sincerely

                                           <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                           
                                           Len Wolfson
                                           Assistant Secretary for
                                           Congressional and
                                           Intergovernmental Relations

Enclosures

    Question. Will you commit that your staff will provide regular and 
substantive updates to my staff and Sen. Duckworth staff moving 
forward?
    Answer. HUD looks forward to continuing working closely with your 
office to share information through regularly scheduled biweekly calls 
with your staff.
    Question. One of our highest priorities should be ensuring the 
health and safety of the families who are being relocated. Both my and 
Senator Duckworth's offices have received disturbing reports of 
increasingly dangerous and unsanitary living conditions faced by the 
remaining families who have not yet relocated from public housing in 
Cairo and Thebes. Not only have we been hearing that the existing 
rodent and cockroach infestations have run rampant as there are 
increasingly fewer occupied units for them to seek out warmth, but many 
of the buildings continue to be plagued with severe plumbing issues and 
there are issues with unsecured trash littering the grounds. And the 
safety concerns posed to residents by improperly secured vacant units 
cannot be overstated. My staff has been told about one mother who is 
living with her children in a unit in Thebes that is next door to a 
vacant unit currently being used by trespassers as an active meth lab.
    Secretary Carson, do you believe HUD is doing an adequate job 
ensuring the health and safety of residents who currently live in Cairo 
and Thebes public housing units?
    Answer. HUD continues to address immediate health and safety issues 
for ACHA properties, with emergency maintenance (i.e. plumbing and 
electrical work orders). In instances where ACHA cannot make adequate 
repairs to units, families have been relocated to other ACHA units that 
are safe and healthy.
    Question. Will you commit to ensuring that additional funds be made 
available to address the criminal activity, vandalism, and personal 
safety concerns currently faced by residents living in public housing 
units in Cairo and Thebes?
    Answer. HUD and the ACHA team will continue to work with local law 
enforcement officials regarding crime and public safety at ACHA 
properties. ACHA has applied for HUD Safety and Security grants to 
address public safety in Alexander County.
    Question. While it is obvious that many families living in Thebes 
are not living in safe or healthy conditions, families living there are 
still required to pay rent. When my staff raised this issue with your 
staff on a phone call yesterday, the explanation we got as to why HUD 
was not abating rent for residents in Thebes units was, ``there is 
value in shelter.''
    Secretary Carson, can you tell me what value you think is fair to 
charge the mother who is raising her children next door to a meth lab?
    Answer. HUD and ACHA recognize the need to adjust rents based on 
the property conditions. The HUD ACHA team has taken necessary steps to 
properly secure the vacant units in Thebes that have been accessed by 
trespassers to alleviate the safety concerns raised by the residents.
    Question. Can you commit to me that HUD will abate rent for the 
families who are still living in Thebes units until they can be 
relocated to safe housing?
    Answer. HUD and ACHA recognize the need to adjust rents based on 
the property conditions and will continue to do so.
    Question. Senator Duckworth and I sent you a letter at the 
beginning of the month. In this letter we raised a number of questions 
regarding how HUD reached its decision to relocate residents from 
Thebes units and how the relocation of Thebes residents would impact 
the resources available to the remaining families who have not yet 
relocated from public housing units in Cairo.
    While I am certainly looking forward to reading the full written 
response to my letter, can you commit two things to me today: families 
who are being relocated from public housing units in Thebes will have 
complete access to mobility and relocation specialists to assist them 
in securing safe housing; and resources used to assist families being 
relocated from Thebes public housing will not negatively impact 
families who are still in the process of relocating from Cairo public 
housing?
    Answer. Yes. HUD is committed to providing the same relocation 
services for the families at Thebes, and ACHA has the necessary 
resources to assist all families. No family will be negatively 
impacted.
    Question. Your staff has been adamant that it is HUD's intention to 
release Alexander County Housing Authority from receivership by the end 
of 2018, less than 3 years after taking it over. What is less clear to 
me is what the Department's plan is to do that. My concern is this. 
Last year, my home town of East St. Louis was released back to local 
control after a transition period that lasted several years. If HUD 
does in fact exit Alexander County Housing Authority by the end of 
2018, this provides very little time to restore their financial health 
or provide sufficient technical training for new local board members.
    Should HUD release Alexander County Housing Authority back to local 
control, how will the Department ensure that history will not repeat 
itself in the form of financial mismanagement, fraud, and failed 
oversight?
    Answer. The Department is currently assessing options for 
repositioning the 155 units that will remain in Cairo. As with any 
other HUD receivership, HUD will make certain that proper oversight and 
controls are in place to prevent the conditions that led to the need 
for the receivership.
    Question. If becomes clear by the end of 2018 that it would not be 
responsible for HUD to release ACHA back to local control, is HUD 
prepared to continue holding ACHA in receivership to ensure residents 
are not harmed by HUD's premature exit?
    Answer. In assessing the options for ending the receivership in its 
current form, the Department will weigh all considerations before 
making that decision. Any decision will take into account the long-term 
health and safety of the residents and HUD's confidence that the entity 
operating the housing authority has the capacity to do so. HUD will 
continue to be involved with ACHA as long as necessary to meet the 
community's needs, the needs of the housing authority and, most 
importantly, its residents.
                poor living conditions in public housing
    Question. During your confirmation hearing and in your response to 
a letter I sent you before you were confirmed, you expressed an 
understanding of the importance of addressing lead in housing. I very 
much appreciate hearing your commitment to work with me on this issue. 
HUD's current visual inspection standard for identifying the presence 
of lead in Section 8 housing is completely ineffective and 
unacceptable. American families, including many in my home state of 
Illinois, should not have worry about whether their children are going 
to be poisoned or made ill because of their housing. I appreciate that 
HUD stepped up by aligning its poisoning prevention definition in 
accordance to the CDC guidelines. But, as you know, more has to be done 
to help families who may be exposed to lead poisoning. I hope you'll 
use the recent increase in funding Congress provided to HUD in the 
omnibus to take these critical steps.
    Can I get a commitment from you that you will take steps to conduct 
risk assessments for the families with children under the age of 6 
before they move into their new housing?
    Answer. HUD appreciates the additional funding for its lead hazard 
control grant program provided in the Consolidated Appropriations Act, 
2018 (Public Law 115-141). The Department is using that additional 
funding to substantially increase the number and amount of awards it is 
making available in the fiscal year 2018 notice of funding availability 
for its lead hazard control grant program, to be published this spring, 
and with grants expected to be awarded this summer. HUD has used its 
statutory authority under the Residential Lead-Based Paint Hazard 
Reduction Act of 1992 (42 U.S.C. 4851-4856) (``Title X'') to require, 
under its Lead Safe Housing Rule (LSHR) (24 CFR 35, subparts B R), that 
risk assessments be conducted in many of its housing assistance 
programs, including public housing, project-based rental assisted 
housing, project-based voucher housing, and multifamily housing having 
HUD Federal Housing Administration mortgage insurance, when the housing 
into which families will move is older, generally, built before 1978.
    HUD does not have statutory authority to require risk assessments 
for its Housing Choice Voucher (HCV) program regarding pre-1978 housing 
units in which a child under age 6 resides or is expected to reside, 
although the Rule requires, before the family moves in, a visual 
assessment for deteriorated paint, stabilization of such paint, and if 
the amount of deterioration is more than de minimis, passing a 
clearance examination. Before deciding whether HUD would request the 
significant statutory change to obtain authority to require risk 
assessments of such housing units, the Department would need to conduct 
and evaluate the results of a statistically rigorous study on the 
impact of risk assessments on leasing times and availability of housing 
for extremely low-income families. At this time, such a study has been 
neither funded nor designed. In addition, every major study published 
to date regarding assisted families access to opportunity neighborhoods 
has cited the time required to complete HUD required inspections as a 
major obstacle to landlord participation in the HCV program. The HCV 
inspections process typically takes 15 days to complete, adding a lead 
risk assessment would add a minimum of 5 to 15 days to the HCV approval 
process. In tight rental markets where there is high demand for rental 
housing there is no incentive for landlords to hold their units for an 
additional two weeks to accommodate an additional inspection 
requirement. Additionally, HUD could also study alternatives to the 
risk assessment model, such as targeted dust sampling, that may achieve 
similar level of protection as a full risk assessment for a smaller 
cost and shorter waiting time. Without the suggested study on the 
impact of risk assessments on leasing times and availability of housing 
for extremely low-income families, HUD cannot unequivocally support a 
new statutory requirement that would mandate a traditional risk 
assessment prior to move in of HCV voucher holders.
    Question. Can you work to create process at HUD that provides the 
necessary resources to help families relocate immediately--without 
facing any penalties or loss of future assistance--if lead hazards are 
found in a home?
    Answer. As indicated in HUD's response to the previous question, 
the lack of housing options is often a significant barrier to 
relocation for low, very-low, and extremely-low income families. 
Furthermore, controlling lead hazards in HUD-assisted housing increases 
the supply of lead-safe housing. The approach of the Lead Safe Housing 
Rule (LSHR) is to try to ensure the family's safety and health with as 
little disruption as possible. This may require temporary relocation 
during lead hazard control, for protecting the health of the residents, 
but the preference is to avoid displacement, and the vast majority of 
lead hazard control projects are undertaken without displacement.
    In cases of housing assisted by HUD's Office of Public and Indian 
Housing (PIH) where lead hazard control of public housing, project-
based voucher housing, or housing choice voucher (HCV) units, is not 
completed within the timeframes established by the LSHR, a public 
housing agency may use Housing Choice Vouchers (HCV) administrative fee 
revenue to assist with temporary relocation; the families are not 
penalized and do not lose future assistance. Similarly, in those cases 
where temporary relocation is infeasible, and the families must be 
displaced, they are not penalized and do not lose future assistance.
    In cases of housing assisted by HUD's Office of Multifamily Housing 
Programs (MF) where lead hazard control of project-based Section 8 
assisted units is not completed within the timeframes established by 
the LSHR, MF has a process in place under which residents can relocate 
immediately through a ``Section 8 pass-through lease.'' This process is 
covered in HUD handbook 4350.1, ``Multifamily Asset Management and 
Project Servicing,'' chapter 38, section 38-32 (www.hud.gov/sites/
documents/DOC_24956.doc). An owner with a resident under a project-
based Section 8 Housing Assistance Payments contract whose unit was 
rendered uninhabitable may temporarily lease a unit in another 
building, provided it meets the Uniform Physical Condition Standards or 
Housing Quality Standards. For pre-1978 units, these standards include, 
respectively, a risk assessment or a visual assessment for deteriorated 
paint, and remediation of problems identified, prior to move-in. In 
these cases, the owner can sign a temporary lease on behalf of the 
displaced Section 8 resident and begin to voucher for the contract rent 
for that temporary unit. The owner then pays no more than the contract 
rent on the temporary dwelling until the resident's permanent rental 
unit has been restored to habitable condition and the owner notifies 
the resident that they may resume occupancy of their former unit. While 
MF can allow the use of PBRA funds to cover the lease costs of 
relocation housing, the relocation costs must be covered by the owner 
of the housing rendered uninhabitable. The resident is still 
responsible for the resident's share of the temporary rent. HUD 
requires the property owner to cover the resident's relocation costs to 
the temporary unit.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                           hud-vash vouchers
    Question. Secretary Carson, the 2017 Point-In-Time (PIT) Count from 
your Department found approximately 553,700 individuals' nationwide 
experiencing homelessness on any given night in January 2017, a net 
increase of 3,800 people experiencing homelessness as compared to 2016.
    California communities represented seven of the ten largest 
increases in homelessness nationally since 2016.
    More specifically, the HUD PIT Count found an increase of 1.5 
percent in homeless veterans. For example, Los Angeles County reported 
the largest increase in veteran homelessness in the country, 
documenting 1,748 more homeless veterans in 2017, an increase of 64 
percent from 2016.
    How is the Department working with the VA to ensure that the HUD-
VASH vouchers are utilized in areas close to VA facilities where 
veterans may be receiving care and case management services?
    Answer. PHAs cannot steer veterans to lease units in specific 
locations, but because case management is required, the VA case manager 
ensures the veteran will live in those areas that are accessible to 
case management services. HUD works with PHAs and VA Medical Centers to 
ensure that allocated HUD-VASH vouchers are leased and veterans are 
able to access the services they need.
    Question. When veterans in a specific area have lower than average 
success in obtaining housing when compared to veterans participating in 
HUD-VASH nationally, what does HUD do to assist those veterans in 
finding housing options?
    Answer. It is often more difficult for veterans in high-cost, low 
vacancy markets or markets with limited housing stock to compete for 
limited affordable housing. Under the operating requirements of the 
HUD-VASH program, PHAs must have a minimum voucher search term of 120 
days (unlike the minimum 60 days under the regular voucher program). 
PHAs are also able to allow for unlimited extensions of this term to 
allow families as much time as is needed to find and secure an 
acceptable unit. Using the broad waiver authority authorized under HUD-
VASH, HUD has approved exception payment standards for some PHAs 
specifically for the HUD-VASH program. These higher payment standards 
give the veteran more buying power, especially in high cost markets. To 
create more long-term affordable housing options and reduce the time 
veterans search for housing, HUD encourages converting tenant-based 
HUD-VASH vouchers to project-based voucher assistance where 
appropriate. Additionally, the process of converting HUD-VASH from 
tenant-based to project-based was streamlined under HOTMA by not 
requiring HUD approval to convert the vouchers. HUD routinely works 
with the VA and our partners at the United States Interagency Council 
on Homelessness (USICH) to find community-specific solutions and 
leverage any available community resources. For example, a common 
obstacle faced by veterans during the lease-up process is a lack of 
funds for security deposits and other move-in costs. HUD, VA, and USICH 
work together with the local communities to identify organizations that 
can step in and assist the veteran with these expenses.
    Question. What is HUD's position on allowing Public Housing 
Authorities to have the ability to transfer, with HUD approval, HUD-
VASH vouchers from one housing development to another?
    Answer. PHAs are able to use the portability provision to allow 
veterans to move and continue utilizing their HUD-VASH vouchers as well 
as receive the required case management from the VA medical center. 
However, PHAs do not have the authority to transfer HUD-VASH vouchers 
that are not being utilized between PHAs. To address the changing needs 
of homeless veterans across the country, HUD and VA are working 
collaboratively to develop a process for recapturing unused HUD-VASH 
vouchers from communities that no longer need them and reallocating 
these vouchers to current high-need communities.
                      homeless children and youth
    Question. In sharp contrast to HUD's homeless numbers, public 
schools and Head Start programs report significant increases in 
children, youth, and families who are homeless.
    You won't see most of them on the streets. They bounce between 
couches and floors, motels, and if they're lucky, shelters. They move 
from place to place, wherever they can find a place stay. These are 
dangerous and unhealthy situations that are just as bad as, or worse 
than, being outside. They put children and youth at risk of 
trafficking, abuse, and neglect.
    Do you agree that communities should be allowed to at least triage 
these children and youth, and serve them with HUD homeless assistance 
funds when appropriate?
    Answer. HUD is strongly committed to ending homelessness as set 
forth in the Federal Strategic Plan to Prevent and End Homelessness, 
including ending homelessness for youth. HUD's current definition of 
homelessness, which was expanded through the HEARTH Act, includes many 
youth living in situations you mention in your question. Among other 
things, the current eligibility requirements for HUD's Continuum of 
Care (CoC) and Emergency Solutions Grants (ESG) programs balance the 
need to serve people with a diverse array of circumstances with the 
need to target assistance to people with the highest needs all while 
ensuring that each person receives the best combination of housing and 
supportive services tailored to their situation.
    Since HUD began implementing the expanded definition, however, 
there has been confusion about who meets the criteria and who can be 
served with HUD funding. HUD has worked to dispel misinformation with 
training and communications. To clarify, in addition to individuals and 
families living in places not meant for human habitation, emergency 
shelter, or safe havens, HUD's definition of homelessness includes 
those households residing in transitional housing, hotels and motels 
paid for by charitable organizations or by a unit of government, living 
temporarily with friends or family but must leave within two weeks, and 
finally those households fleeing or attempting to flee domestic 
violence. It is important to make clear that no youth should ever have 
to sleep in an unsheltered location or in a place where they are 
trafficked or fearful of abuse. People facing these circumstances that 
have no other alternatives should be able to access, at a minimum, our 
emergency shelter services, but may also be eligible for programs like 
transitional housing, rapid re-housing, and permanent supportive 
housing.
    Young people who meet HUD's current definition of homelessness 
should be assessed and prioritized locally for assistance through HUD's 
homeless assistance programs. Unfortunately, HUD does not have 
sufficient funding to serve all persons who meet our definition of 
homelessness and need our assistance. In addition to using dedicated 
homeless resources, HUD encourages communities to maximize their use of 
mainstream housing service programs--particularly housing choice 
vouchers--to serve as many people experiencing homelessness as possible 
and many public housing agencies have adopted a preference for people 
experiencing homelessness in their jurisdictions.
    In addition, HUD's ESG program serves people who are at risk of 
homelessness, which includes people who qualify under the Department of 
Education's definition of homelessness and other Federal agencies' 
definitions and who have no other resources or support networks to 
obtain housing. ESG resources are also prioritized based on need, and 
when communities use them to serve people at risk of homelessness, they 
should identify those individuals who are doubled up or couch surfing 
who have the highest level of need. ESG can provide a flexible 
combination of housing assistance and supportive services tailored to 
meet these needs.
    Many people face unstable housing situations, including 
overcrowding, doubling up, or paying too high a proportion of their 
income for rent. Providing mainstream housing assistance and improving 
the supply of affordable housing is the best way to meet their needs, 
and we encourage all of HUD's programs as well as locally or privately 
funded housing providers to coordinate with their local homeless 
assistance community.
                      moving to work demonstration
    Question. Moving to Work (MTW) is a demonstration program for 
Public Housing Authorities that gives them more flexibility in how they 
use Federal funds, allowing them to better tailor their programs to 
meet local needs.
    In the fiscal year 2016 Omnibus, Congress approved a large 
expansion of the MTW program, allowing 100 additional public housing 
agencies to join.
    But in California, many Public Housing Authorities in the state 
face challenges as they struggle to keep pace with the growing housing 
affordability gap and need interventions and the flexibility provided 
by the MTW program in order to counter extremely high costs of living 
and rapidly-changing rental markets.
    Can you provide an update on where HUD is in the process of 
implementing the most recent expansion of the MTW program?
    Answer. Thank you for your interest and support of the expansion to 
the MTW demonstration. HUD is developing guidelines, informed by public 
comments, to govern the expansion of the demonstration. MTW agencies 
will be designated by cohort over 7 years and, as required by the 2016 
Appropriations Act, HUD will study and learn from these agencies in 
order to improve the future delivery of federally-assisted low-income 
and affordable housing. The 2016 Appropriations Act required the 
Secretary to establish a research advisory committee to advise the 
Secretary with respect to specific policy proposals and methods of 
research and evaluation for the demonstration. From 2016--2017, HUD 
convened the MTW Research Advisory Committee and received its 
recommendations. HUD intends to take the advice of the Committee; 
therefore, the first cohort will evaluate the overall impact of MTW as 
a flexibility and focus on the smaller PHAs (under 1,000 units), and 
the second cohort will evaluate rent reform alternatives and PHAs of 
all sizes will likely be invited to apply. Two additional cohorts will 
(separately) study work requirements and landlord incentives, as 
suggested by the Committee.
    In January 2017, HUD published in the Federal Register for public 
comment the draft MTW Operations Notice, which establishes requirements 
for the implementation and continued operation of the expansion of the 
MTW demonstration program. HUD received over 800 comments and will 
publish an updated Operations Notice for a 30-day public comment period 
this Spring.
    The following is our anticipated timeline for MTW expansion 
implementation through the designation of the second of the four 
planned cohorts:

Summer 2018:

          --Publish revised MTW Operations Notice for a second round of 
        public comments, and revise again based on comments received.

          --Publish MTW First Cohort Selection Notice to invite the 
        initial cohort of MTW agencies to apply (likely 30 agencies).

Fall 2018:

          --Publish final MTW Operations Notice.

          --Publish MTW Second Cohort Request for Letters of Interest 
        Notice that outlines the parameters of the second cohort and 
        invites PHAs to submit letters indicating their intentions to 
        apply if selected.

Winter 2018:

          --Designate the initial cohort of PHAs as MTW agencies.

          --Invite the second cohort of agencies to apply.

Spring 2019:

          --Designate the second cohort of PHAs as MTW agencies.
 federal housing agency-housing finance agency multifamily risk-sharing
    Question. Congress established the Federal Housing Agency (FHA)--
Housing Finance Agency (HFA) Multifamily Risk-Sharing program in 1992 
to increase and speed up FHA's multifamily mortgage production. The 
FHA-HFA Risk-Sharing program allows state HFAs that meet rigorous 
financial standards to underwrite FHA multifamily loans in return for 
sharing the risk of losses on those loans.
    HUD has previously said that ``the Risk-Sharing program is an 
increasingly important part of meeting HUD's strategic goal to support 
affordable housing preservation and development.'' But HUD failed to 
include an extension of this program in the Administration's fiscal 
year 2019 budget request.
    Why did HUD not request the inclusion of an extension of the risk-
sharing program in the Administration's budget request for fiscal year 
2019?
    Answer. The Risk-Sharing program remains an important part of 
meeting HUD's affordable housing goals. The Department is not 
terminating the Risk Sharing program and HUD fully supports the 
continued use of Risk Sharing with HFA partners. The Risk Sharing 
program will continue to be funded with FHA Insurance commitment 
authority.
    Question. What is your justification for why HUD's risk-sharing 
program is no longer needed and what evidence do you have to support 
this justification?
    Answer. As noted in the response to the question above, HUD is not 
terminating the Risk Sharing program.
              proposed changes to hud's mission statement
    Question. This year is the 50th anniversary of the enactment of the 
Fair Housing Act (FHA), the purpose of which was to end discrimination 
in the sale, rental, and financing of homes on the basis of race, 
color, religion, sex, or national origin.
    But recently HUD announced that it is considering a change to its 
mission statement from one that promotes inclusion and discrimination-
free communities to one that does not strive to offer the same 
protections.
    Could you provide an update on where HUD is in the process on this 
issue?
    Answer. As in previous Administrations, HUD is considering modest 
changes to the Department's mission statement to make it a more clear 
and concise expression of the historic work this agency performs on 
behalf of the American people. As part of this effort, HUD is currently 
soliciting input from employees across the agency. You can be sure of 
one thing--any mission statement for this Department will embody the 
principle of fairness as a central element of everything that we do. 
HUD is committed to ensuring inclusive housing, free from 
discrimination, for all Americans.
        transitional housing for survivors of domestic violence
    Question. Access to safe and affordable housing is crucial to 
domestic violence survivors' healing, and HUD's Transitional Housing 
Program has a key role in providing short-term safe housing for 
domestic violence survivors who need a few weeks or months to rebuild 
their lives.
    As you know, both in California and nationwide, domestic violence 
shelters have either been shut down or they are perpetually overcrowded 
due to a decrease in funding for Transitional Housing Programs. This 
decrease in funding comes as a result of domestic violence shelters 
being scored low in Continuum of Care (CoC) grant applications because 
of the priority parameters that are set by HUD.
    HUD has previously recognized the intersection between domestic 
violence and homelessness.
    Do you have a strategy in place to ensure that domestic violence 
shelters receive the funding necessary to remain open and will you 
commit to ensuring such shelters are appropriately scored in the CoC 
grant applications so survivors of domestic violence and their families 
do not end up homeless?
    Answer. Because of the large number of people served by HUD's 
homeless assistance programs that have experienced domestic violence, 
it is important to HUD that our communities consider high quality 
projects that serve survivors of domestic violence as a critical 
component of their homeless services system. Therefore, HUD encourages 
Continuums of Care (CoC) to continue funding high quality projects for 
survivors of domestic violence regardless of component type. This means 
transitional housing programs and emergency shelters for survivors 
should have a place in a community's system so long as they meet a 
community need, can show positive safety and housing related outcomes, 
and provide choice to the people who want to use these types of 
programs.
    However, HUD expects that other types of projects that are 
dedicated to survivors demonstrate these same qualities. Because rapid 
re-housing assistance offers a great deal of flexibility in terms of 
the length and depth of the rental assistance and the services 
provided, it can often meet the immediate needs of survivors while 
exiting them quickly from homelessness. Moreover, rapid re-housing can 
often achieve this while serving more people, being more cost-
effective, and having better outcomes for the survivor than 
transitional housing. Therefore, many communities have shifted their 
transitional housing projects for survivors to rapid re-housing 
projects for survivors.
    HUD uses its CoC Program Competition to incentivize CoCs to adopt 
best practices and most effectively serve those experiencing 
homelessness in their communities. Included in the fiscal year 2017 CoC 
Application, as in the past, HUD requires CoCs to report how they 
address the unique needs of survivors of domestic violence, what 
regular training is being offered to improve how coordinated entry 
participants address the specific needs of survivors of domestic 
violence, and how they measure the needs related to survivors of 
domestic violence.
    Additionally, in the fiscal year 2017 CoC Program Competition, HUD 
introduced a new project type that combines transitional housing and 
rapid rehousing. It allows communities to provide people experiencing 
homelessness with a safe place to stay while they search for a 
permanent unit and then provides the financial resources to help them 
obtain and maintain that permanent unit. One of the populations HUD 
recommended a CoC consider for this new type of project was survivors 
of domestic violence and many victim service providers were funded in 
the fiscal year 2017 Competition for this type of project.
    HUD is moving quickly to make the additional $50 million of funding 
from the fiscal year 2018 appropriation dedicated to assisting 
survivors of domestic violence available to communities. This is a 
great opportunity to continue to encourage communities to implement 
effective programs and best practices for ending homelessness for 
survivors of domestic violence.
    Within HUD's CoC Program, HUD gives CoCs flexibility to determine 
how projects are prioritized for funding. Projects that are ranked 
highly by communities are awarded, including transitional housing 
programs for survivors of domestic violence. In the fiscal year 2017 
Competition, HUD allowed communities to rank up to 94 percent of their 
funding in the high priority category. Projects that are ranked lower 
compete against other lower priority project applications across the 
country. To the extent that CoC's continue to rank projects for 
survivors, including transitional housing projects, in this high 
priority category, HUD anticipates respecting that decision and 
continuing to fund them. Additionally, HUD expects that its ESG program 
will continue to fund emergency shelters, rapid re-housing projects, 
and homelessness prevention projects for survivors across the country.
    Finally, HUD partners with DOJ's Office of Violence Against Women 
and HHS' Family Violence Prevention & Services to find solutions to 
better serve survivors of domestic violence. Together, HUD, DOJ, and 
HHS created the Domestic Violence and Housing Technical Assistance 
Consortium. The Consortium, launched in 2015, provides training, 
technical assistance, and resource development at the critical 
intersection of homelessness and domestic violence and sexual assault. 
The Consortium works collaboratively to improve policies and practices 
that strengthen efforts to build safe and supportive housing options 
for domestic and sexual violence survivors.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                              home program
    Question. Given the extraordinary demand for affordable housing and 
the great benefits that the HOME program provides, why does the budget 
once again eliminate the HOME program?
    Answer. This Administration believes that state and local 
governments are best positioned to address specific needs in their 
communities. Therefore state and local governments are uniquely 
situated to engage public, private, and philanthropic partners to 
coordinate efforts to effectively address affordable housing needs 
within their jurisdictions.
    Question. Do you anticipate that these budget cuts will result in a 
net decrease in the availability of affordable housing?
    Answer. Units previously funded with HOME dollars have 
affordability periods of up to 20 years. Consequently, in the short 
term, there should be no decrease in the availability of affordable 
housing units. However, maintaining or increasing affordable housing 
stock over time will require a commitment from states and local 
governments to carefully evaluate policies that may be contributing to 
affordability issues and to commit to policy reforms and new funding 
mechanisms to address affordability. In particular, to meet their 
affordable housing needs, states and localities must reform local 
policies such as zoning and permitting policies, and commit state and 
local resources through state or local housing trust funds, property 
tax exemptions, state-funded rental assistance programs, or state 
investor tax credits.
                         impact of budget cuts
    Question. The HUD budget request states that budget cuts are to 
``recognize a greater role for State and local governments and the 
private sector in addressing community development and affordable 
housing needs''. In Delaware, few projects happen without significant 
Federal support from programs like CDBG and HOME. Federal funding is 
essential in order to attract other state and private financing. 
Without this Federal gap financing, projects would not be funded. Can 
you elaborate on your expectation about State and localities covering 
an over $4 billion annual shortfall?
    Answer. HUD believes states and local governments are uniquely 
situated to engage public, private, and philanthropic partners and to 
coordinate efforts to effectively address affordable housing needs 
within their jurisdictions. To meet their affordable housing needs, 
states and localities must reform local policies such as zoning and 
permitting policies, commit state and local resources through state or 
local housing trust funds, property tax exemptions, state-funded rental 
assistance programs, or state investor tax credits.
                             public housing
    Question. The Administration is proposing significant cuts to 
Public Housing funds, particularly the Capital Fund, which is 
eliminated under the fiscal year 2019 request.
    What will the impact of these cuts be on the quality and condition 
of the nation's public housing, and the families, people with 
disabilities, and elderly people who live in these homes?
    Answer. The current approach to supporting the Public Housing 
program is unsustainable and has resulted in units lost due to poor 
physical conditions, and more than $26 billion in unmet capital needs. 
To address the problem, the President's Budget includes enhanced tools 
and strategies to empower PHAs to make local decisions about how to 
best use their properties to meet the needs of their communities. Among 
the flexibilities and resources available to PHAs are:

  --Demolition: If a project is physically distressed or obsolete, the 
        PHA may apply to HUD to demolish the property. In these cases, 
        residents may be eligible to receive tenant protection vouchers 
        as their form of subsidized housing, and PHAs also have the 
        option to move residents to other public housing properties 
        within their portfolio. The Budget requests $30 million to 
        facilitate the demolition of physically obsolete public housing 
        projects.

  --Rental Assistance Demonstration (RAD) program: RAD allows public 
        housing properties to shift to the Section 8 Project-Based 
        Voucher and Project-Based Rental Assistance platforms. These 
        project-based Section 8 programs benefit from greater private 
        sector involvement and can leverage private financing for 
        modernization, generally resulting in higher quality housing 
        for the assisted low-income families. HUD requested $100 
        million in the Budget to facilitate RAD conversions.

  --Disposition: HUD recently published PIH Notice 2018-4, which 
        streamlines the disposition process. The Notice also allows a 
        PHA to redevelop a non-distressed property and receive tenant 
        protection vouchers for up to 25 percent of the occupied units 
        in the property, which could then be used to provide project-
        based assistance for residents.

    Through these policies, HUD is seeking to shift public housing to a 
more sustainable platform of support. PHAs may utilize these options to 
address the needs of Public Housing.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                              rescissions
    Question. Despite the fact that the President signed the Bipartisan 
Budget Agreement, press reports indicate that he is now considering 
sending a package of rescissions to Congress that would undo spending 
decisions based on that deal. I believe when you strike an agreement, 
you should stick to it. It is clear that you and I have very different 
visions of what the budget for the Department of Housing and Urban 
Development should be, and what it should prioritize. Congress clearly 
rejected in the fiscal year 2018 Omnibus the President's proposed cuts 
to housing and community development programs. Not getting the message, 
the President again proposes significant cuts to these important 
programs in fiscal year 2019.
    Given the stark difference between the vision Congress has for the 
Department, and yours, have you or anyone on your staff recommended or 
do you plan to recommend to the President or OMB that we rescind any of 
the money we recently appropriated for housing and community 
development proposals? Which programs specifically?
    Answer. Awaiting clearance from OMB
                   rapid rehousing--domestic violence
    Question. The proposed budget for HUD fails to include rapid 
rehousing assistance for victims of domestic violence, dating violence, 
sexual assault or stalking. This funding is imperative to ensure 
victims of abuse don't have to decide between returning to their 
abuser, or becoming homeless, often with their children. Transitional 
housing programs administered by the Department of Justice alone cannot 
solve this problem.
    What should we tell victims in our communities in Vermont and 
across the country since HUD has signaled it does not support these 
programs?
    Answer. Because of the large number of people served by HUD's 
homeless assistance programs that have experienced domestic violence, 
it is important to HUD that our communities consider high quality 
projects that serve survivors of domestic violence as a critical 
component of their homeless services system. Therefore, HUD encourages 
Continuums of Care (CoC) to continue funding high quality projects for 
survivors of domestic violence regardless of component type. This means 
transitional housing programs and emergency shelters for survivors 
should have a place in a community's system so long as those projects 
meet a community need, can show positive safety and housing related 
outcomes, and provide choice to the people who want to use these types 
of programs.
    However, HUD expects that other types of projects that are 
dedicated to survivors demonstrate these same qualities. Because rapid 
re-housing assistance offers a great deal of flexibility in terms of 
the length and depth of the rental assistance and the services 
provided, it can often meet the immediate needs of survivors while 
exiting them quickly from homelessness. Rapid re-housing can often 
serve more people, be more cost-effective, and have better outcomes for 
the survivor than transitional housing. Therefore, many communities 
have shifted their transitional housing projects for survivors to rapid 
re-housing projects for survivors.
    HUD uses its CoC Program Competition to incentivize CoCs to adopt 
best practices and most effectively serve those experiencing 
homelessness in their communities. Included in the fiscal year 2017 CoC 
Application, as in the past, HUD requires CoCs to report how they 
address the unique needs of survivors of domestic violence, what 
regular training is being offered to improve how coordinated entry 
participants address the specific needs of survivors of domestic 
violence, and how they measure the needs related to survivors of 
domestic violence.
    Additionally, in the fiscal year 2017 CoC Program Competition, HUD 
introduced a new project type that combines transitional housing and 
rapid rehousing. It allows communities to provide people experiencing 
homelessness with a safe place to stay while they search for a 
permanent unit and then provides the financial resources to help them 
obtain and maintain that permanent unit. One of the populations HUD 
recommended CoC consider for this new type of project was survivors of 
domestic violence and many victim service providers were funded in the 
fiscal year 2017 Competition for this type of project.
    HUD is moving quickly to make the additional $50 million of funding 
from the fiscal year 2018 appropriation dedicated to assisting 
survivors of domestic violence available to communities. This is a 
great opportunity to continue to encourage communities to implement 
effective programs and best practices for ending homelessness for 
survivors of domestic violence.
    Within HUD's CoC Program, HUD gives CoCs flexibility to determine 
how projects are prioritized for funding. Projects that are ranked 
highly by communities are awarded, including transitional housing 
programs for survivors of domestic violence. In the fiscal year 2017 
Competition, HUD allowed communities to rank up to 94 percent of their 
funding in the high priority category. Projects that are ranked lower 
compete against other lower priority project applications across the 
country. To the extent that CoC's continue to rank projects for 
survivors, including transitional housing projects, in this high 
priority category, HUD anticipates respecting that decision and 
continuing to fund them. Additionally, HUD expects that its Emergency 
Solutions Grants (ESG) program will continue to fund emergency 
shelters, rapid re-housing projects, and homelessness prevention 
projects for survivors across the country.
    Question. HUD partners with DOJ's Office of Violence Against Women 
and HHS's Family Violence Prevention & Services to find solutions to 
better serve survivors of domestic violence. They have worked together 
to create a Domestic Violence and Housing Technical Assistance 
Consortium. The Consortium, launched in 2015, provides training, 
technical assistance, and resource development at the critical 
intersection of homelessness and domestic violence and sexual assault. 
The Consortium works collaboratively to improve policies and practices 
that strengthen efforts to build safe and supportive housing options 
for domestic and sexual violence survivors.
    Do you think your department has a responsibility to assist victims 
of domestic violence who would otherwise become homeless?
    Answer. The Department continues to prioritize high quality 
projects and communities that serve survivors of domestic violence as a 
critical component of their homeless services system. Through the 
Continuum of Care (CoC) Program Competition and the Emergency Solutions 
Grants (ESG) program, HUD works to ensure that victims of domestic 
violence have services and programs addressing their unique needs. 
Finally, HUD is moving quickly to make the additional $50 million of 
funding from the fiscal year 2018 appropriation dedicated to assisting 
survivors of domestic violence available to communities.
    Question. Will you commit to requesting rapid rehousing assistance 
for victims of domestic violence in the fiscal year 2020 budget?
    Answer. HUD will continue to support housing solutions that address 
the needs and challenges for victims of domestic violence. Through the 
CoC and ESG programs, HUD will support projects that benefit survivors 
including transitional housing programs, rapid re-housing, and 
emergency shelters.
                        deep cuts to hud funding
    Question. The administration's budget proposes deep cuts to 
administrative support and program offices like the chief financial 
officer, general counsel, chief information officer, housing, fair 
housing and lead hazard control, with only a few exceptions. Across 
those offices, the budget proposes cutting 216 full time employees. 
These may sound like faceless, nameless bureaucrats, but they are the 
people that help ensure the department can serve the millions of 
Americas that rely on HUD programs every day. At the same, you propose 
an increase of $1.6 million to accommodate 9 full time staffers for the 
Executive Office.
    How can HUD continue to meet its obligations to the American people 
with deep funding and staff cuts at its Administrative Support and 
Program Offices?
    Answer. The Department can continue to meet its obligations with 
the proposed staffing level. The Department has a stable, experienced, 
dedicated, hardworking workforce that will be able to meet its core 
mission. HUD is also striving to make its programs more efficient and 
effective and is focused on using technology wherever possible to do 
so.
    Question. How do you justify the need to increase staffing to 
support your Executive Office, while proposing to eliminate staff for 
programs that serve our lowest-income Americans and distressed 
communities?
    Answer. The cited increase was relative to a staffing level that 
was temporarily reduced due to vacancies in Executive Offices 
associated with the Presidential transition. The proposed staffing 
level also reflects increased workload associated with managing the 
Department's disaster response. Additionally, the Department has 
notified Appropriations Committee staff that a staffing level of 78 
full time equivalents will be sufficient for fiscal year 2019.
                  the american dream and homeownership
    Question. For so many Americans the prospect of homeownership, long 
viewed as part of the American Dream, is perceived to be out of reach. 
A majority of younger Americans are graduating college with significant 
student loan debt. In some markets more affordable homes are 
underwater, which prevents existing homeowners from selling.
    What steps will your Department take to support initiatives that 
increase opportunities for homeownership, particularly for low income 
Americans and those with significant student loan burdens?
    Answer. FHA continuously monitors its policies to ensure it is 
meeting the housing needs of the borrowers its programs were designed 
to serve while simultaneously minimizing the risk undertaken relative 
to the insurance of those mortgages. As part of this monitoring, FHA is 
assessing how changes in the student loan debt market over the past 
several years may impact FHA's requirements for analyzing student loan 
debt in the underwriting process. FHA is simultaneously seeking to 
update its technology to be able to capture and analyze additional data 
about the mortgages it insures. This effort includes plans to capture 
credit report data files that would enhance FHA's ability to assess 
borrowers' debt types, including student loan debt.
    Question. What is the Department's view on shared equity 
homeownership models?
    Answer. HUD supports investigating prudent and sustainable 
homeownership models that would benefit low- and moderate-income and 
first-time homebuyers. There are a variety of shared equity 
homeownership models that have been tested over the years. The most 
prevalent are those that entail the use of second liens and subsidies 
from nonprofits or governmental entities both of which, if they were 
attached to an FHA-insured first mortgage, have the potential to 
increase risk to the Mutual Mortgage Insurance Fund. Further, the most 
common shared equity models reduce a borrower's ability to take 
advantage of the full equity they've built up at the time of resale. 
That being said, HUD would be interested in exploring any shared equity 
models put forth that can reasonably balance risk with borrower 
benefit.
    Question. Would the Department support Federal investment in 
studying the appropriate role of shared equity homeownership and a 
potential role for HUD in scaling up shared equity homeownership in the 
United States?
    Answer. HUD would be happy to discuss the potential of a Federal 
study with your office.
                      elimination of cdbg and home
    Question. The administration has again proposed eliminating the 
CDBG and HOME programs, which provide critical capital to organizations 
in my state of Vermont that develop affordable housing. It is my 
impression that by putting forward this proposal, the administration 
really doesn't understand what it takes to create affordable housing in 
rural America. In Vermont, developers pull together every possible 
source of funding, often from multiple programs and Federal agencies to 
create something that meets the needs of Vermonters. It is not 
uncommon, even in rural Vermont, for a housing trust to receive 
hundreds of applications for units when they have only a small handful 
available. Too often, projects in the pipeline fall through for lack of 
funding, illustrating the critical need for a combination of Federal, 
state, private, and nonprofit investment. Absent Federal funding, these 
project simply do not move forward. States, communities, nonprofit 
organizations, and private entities are already stretching their 
dollars as far as they can. That nongovernment entities cannot fill the 
funding gaps if Federal investment were removed from the equation, what 
would you and your Department say to the Vermonters and other Americans 
is desperate need of affordable housing?
    Answer. The Administration believes that state and local 
governments are best positioned to address specific needs in their 
communities. Therefore, the Administration continues to seek the 
elimination of the Community Development Block Grant (CDBG) program, 
shifting responsibility for community development to the state and 
local level. Since 1980, and most recently in 2013, HUD studies have 
found that CDBG is not well targeted to the poorest communities and it 
has not demonstrated a measurable impact on communities. Similarly, the 
Administration proposed the elimination of the HOME Investment 
Partnerships program because state and local governments are better 
positioned to address the unique local market challenges and 
impediments that lead to housing affordability problems.
    Question. What strategies would you recommend to those that are 
unable to find affordable rental housing and would be further 
disadvantaged by your department's budget proposal?
    Answer. HUD believes that effectively addressing affordable housing 
needs requires a multi-pronged effort that leverages the unique ability 
of state and local governments to engage local institutions and 
coordinate resources. This effort could include: reform of local 
policies such as zoning and permitting that lengthen development 
timelines and raise development or operating costs; greater commitment 
of state and local resources to affordable housing, such as 
establishment of local housing trust funds, property tax exemptions, 
state-funded rental assistance programs, and state investor tax 
credits; careful targeting of existing Federal resources such as Low-
Income Housing Tax Credits; and increased coordination between state 
and local governments and the local business community (especially 
large institutional employers), philanthropic organizations, and 
nonprofit service providers.
                 affirmatively furthering fair housing
    Question. On January 5, 2018, your department announced it would 
delay the implementation of the Affirmatively Furthering Fair Housing 
Rule. Why did your department choose to delay the AFFH rule?
    Answer. Based on the initial Assessments of Fair Housing (AFH) 
reviews, HUD believes that program participants need additional time 
and technical assistance to adjust to the new AFFH process and complete 
AFH submissions that can be accepted by HUD. HUD's January 5, 2018 
Federal Register notice announced the delay of the submission of 
Assessments of Fair Housing (AFH). At that time, 49 local governments 
had submitted AFHs to HUD using the new format established by the AFFH 
Final Rule and the Assessment of Fair Housing Tool for Local 
Governments. HUD's analysis of these AFHs shows that more than one 
third (35 percent) of all local governments in the cohort of the first 
49 AFHs submitted were not accepted by HUD on first submission. Another 
third required intensive intervention and technical assistance during 
HUD's review process before the AFH was accepted. HUD did not 
anticipate mid-review technical assistance and addendums being 
necessary until issues presented themselves during implementation. HUD 
determined that program participants' frequent misunderstanding of how 
to set clear goals, metrics, and milestones that addressed their 
identified contributing factors and related fair housing issues too 
often resulted in non-accepted AFHs.
    Question. In advance of the decision to delay the rule, did HUD 
consider providing, through existing funding or by requesting 
additional funding, increased technical assistance to help 
jurisdictions come into compliance more easily and efficiently?
    Answer. HUD provided technical assistance to every jurisdiction 
conducting an Assessment of Fair Housing.
    Fair Housing and Equal Opportunity (FHEO) staff at the local level 
provided the first line of technical assistance (TA) through ``pre-
submission support'' to HUD program participants as they were in the 
process of preparing an AFH. The AFH pre-submission support included 
the following activities and more depending upon the jurisdiction:

  --sending a welcome letter to program participants outlining the AFH 
        process;

  --providing direct outreach to program participants through email and 
        regularly scheduled conference calls;

  --creating community profiles to familiarize themselves with local 
        conditions in communities prior to AFH submissions;

  --facilitating monthly calls with program participants on AFH 
        requirements 6-9 months in advance of submission; and

  --coordinating inter-office collaboration with other HUD program 
        offices who also engaged program participants during the pre-
        submission phase, e.g. Community Planning and Development (CPD) 
        staff and Public and Indian Housing (PIH) staff.

    In addition to technical assistance provided by staff, HUD TA 
providers engaged in direct technical assistance with program 
participants, on-call technical assistance, product development, and 
regional training for program participants. Have you met with 
jurisdictions, experts, or other stakeholders to strengthen or improve 
the rule? Which ones?
    Answer. HUD intends to conduct listening sessions with stakeholders 
across the country in the coming months. The specific attendees are yet 
to be determined.
    Question. Did your department generate any reports, evaluations or 
documentation in support of delaying the AFFH rule? If so, please share 
that documentation with the Committee. What other steps has the 
Department taken since January of this year and what is the 
Department's timeline moving forward?
    Answer. HUD's analysis (attached) of submitted AFHs indicate that 
more than one third (35 percent) of all local governments submitted 
AFHs that were not accepted by HUD on first submission. Another third 
submitted AFHs required intensive intervention and technical assistance 
during HUD's review process before the AFH was accepted. HUD determined 
that program participants' frequent misunderstanding of how to set 
clear goals, metrics, and milestones that addressed their identified 
contributing factors and related fair housing issues too often resulted 
in non-accepted AFHs.
    HUD continues to provide direct technical assistance (TA) led by 
third party subject matter experts to program participants that wish to 
develop their Analysis of Impediments (AIs). Direct TA is currently 
deployed to local and state governments as well as public housing 
authorities that are participating with their local and state 
governments in conducting joint or regional AIs.
    HUD published three notices in the Federal Register on May 23, 
2018. One withdraws the January 5, 2018, notice that extended the 
deadline for submission of an Assessment of Fair Housing (AFH) by local 
governments. The second notice withdraws the Assessment of Fair Housing 
Tool for Local Governments. In addition, any local government that have 
not yet submitted an AFH that has been accepted by HUD must conduct a 
robust Analysis of Impediments (AI) to fair housing choice within its 
jurisdiction. In its third notice, HUD is reminding these local 
governments that the legal obligation to affirmatively further fair 
housing remains in effect.
    HUD leadership is reviewing next steps regarding the AFFH rule in 
light of the new notices.
   assessment of fair housing (afh) submissions (49) and initial hud 
                            review decisions
October 2016-December 2017

    HUD received, reviewed, and issued initial decisions on (49) 
Assessments of Fair Housing (AFHs) between October 2016 and December 
2017. As the Federal Register Notice stated, 35 percent of these (17/
49) were initially non-accepted.\1\ However, this figure is somewhat 
misleading regarding the performance of HUD program participants on 
initial AFH submissions. Many AFH submissions (28.5 percent or 14/49) 
were only accepted after revisions and additional information was 
submitted to HUD in the form of addendums that were added onto initial 
submissions. Taken together, 63.2 percent of the (49) AFHs submitted 
were either officially non-accepted or accepted after additional 
information and revisions required by HUD. Of the (49) AFHs with 
initial HUD review decisions completed, 18/49 or 36.7 percent were 
acceptable on initial submission to HUD.
---------------------------------------------------------------------------
    \1\ https://www.gpo.gov/fdsys/pkg/FR-2018-01-05/pdf/2018-00106.pdf
---------------------------------------------------------------------------
    We have color-coded these decisions by green, orange, and red to 
classify the types of initial HUD review decisions on the (49) AFHs 
between October 2016 and December 2017. Pages 2-6 of this document 
outline the results for each of the (49) AFHs with initial HUD review 
decisions.
    Accepted: AFHs that were accepted on initial submission without the 
need for additional information. The first submission fulfilled all 
regulatory requirements for acceptance by HUD.
    Accepted with Revision and Addendum: Upon initial review, it was 
determined that revisions and an addendum were needed for these AFH 
submissions to be acceptable. Program participants provided these 
revisions and submitted addendums to HUD for review during the 60-Day 
HUD review period. Examples of information included in these addendums 
were additional details regarding community participation, 
prioritization of contributing factors, additional metrics and 
milestones for assessing goals, etc.
    Non-Accepted\2\: These AFHs were non-accepted on initial submission 
because the AFH did not fulfill regulatory requirements and required 
significant modifications to be acceptable by HUD. Program participants 
were provided between 45-90+ days to revise their AFH and resubmit to 
HUD for a second review.
---------------------------------------------------------------------------
    \2\ Please note that of the (17) initially non-accepted AFH 
submissions: (9/17 AFHs) were accepted by HUD after their second AFH 
submission, (2/17 AFHs) were under review by HUD at the time of 
publication of the FR Notice and reviews were suspended by HUD, and (6/
17 AFHs) were pending a second AFH submission to HUD at the time of 
publication of the FR Notice.

----------------------------------------------------------------------------------------------------------------
                                                                                               # of Program
                  HUD Initial Review Decision                       AFH Submissions            Participants
----------------------------------------------------------------------------------------------------------------
Accepted......................................................               18 (36.7%)               31 (30.1%)
Accepted with Revision and Addendum...........................               14 (28.5%)               29 (28.1%)
Non-Accepted..................................................               17 (34.7%)               43 (41.7%)
    Totals....................................................                       49                      103
----------------------------------------------------------------------------------------------------------------


                                                 Results for (49) AFHs with Initial HUD Review Decisions
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                             Second         Number of
                                              AFH Lead Entity        Collaborating Partners   First Submission Outcome     Submission        Program
                                                                                                                            Outcome        Participants
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: October 4, 2016 (15 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1                                        Dauphin County, PA            Housing Authority of              Non-Accepted      Accepted on                2
                                                                             Dauphin County                                     Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
2                                        Harrisonburg, VA                      Harrisonburg                  Accepted                                 2
                                                                          Redevelopment and
                                                                          Housing Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
3                                        Philadelphia, PA              Philadelphia Housing                  Accepted                                 2
                                                                                  Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
4                                        Wilmington, NC             Housing Authority of the   Accepted with Revision                                 2
                                                                         City of Wilmington              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
5                                        Hamilton, OH                                   N/A    Accepted with Revision                                 1
                                                                                                         and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
6                                        Hammond, IN                                    N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
7                                        Jonesboro, AR              Jonesboro Urban Renewal              Non-Accepted      Accepted on                2
                                                                        & Housing Authority                                     Second
                                                                                                                            Submission
                                                                                                                           (Additional
                                                                                                                           Information
                                                                                                                            Requested)
--------------------------------------------------------------------------------------------------------------------------------------------------------
8                                        New Orleans, LA            Housing Authority of New                 Accepted                                 2
                                                                                    Orleans
--------------------------------------------------------------------------------------------------------------------------------------------------------
9                                        Kansas City, MO              Kansas City, KS; Blue                  Accepted                                 5
                                                                               Springs, MO;
                                                                          Independence, MO;
                                                                                           Leavenworth, KS
--------------------------------------------------------------------------------------------------------------------------------------------------------
10                                       El Paso County, CO                             N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
11                                       Cathedral City, CA                             N/A    Accepted with Revision                                 1
                                                                                                         and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
12                                       Paramount, CA                                  N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
13                                       Temecula, CA                                   N/A              Non-Accepted      Accepted on                1
                                                                                                                                Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
14                                       Apple Valley/Victorville                       N/A              Non-Accepted      Accepted on                1
                                          HOME Consortium, CA                                                                   Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
15                                       Clackamas County, OR          Housing Authority of                  Accepted                                 2
                                                                           Clackamas County
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Additional information and addendums were requested on the second 
AFH submission from Jonesboro, AR for HUD to accept the AFH.

                                                 Results for (49) AFHs with Initial HUD Review Decisions
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                             Second         Number of
                                              AFH Lead Entity        Collaborating Partners   First Submission Outcome     Submission        Program
                                                                                                                            Outcome        Participants
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: January 4, 2017 (5 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
16                                       Manatee County, FL          Manatee County Housing    Accepted with Revision                                 2
                                                                                  Authority              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
17                                       Richland County, SC        Housing Authority of the   Accepted with Revision                                 2
                                                                           City of Columbia              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
18                                       Lake County, OH                                   Lake MetropoliNon-Accepted      Accepted on                2
                                                                          Housing Authority                                     Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
19                                       Lewisville, TX                                 N/A              Non-Accepted      Accepted on                1
                                                                                                                                Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
20                                       Long Beach, CA                                    Long Beach HouNon-Accepted      Accepted on                2
                                                                                  Authority                                     Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: April 6, 2017 (5 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
21                                       New Rochelle, NY              New Rochelle Housing              Non-Accepted      Accepted on                2
                                                                                  Authority                                     Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
22                                       Chester County, PA         Housing Authority of the   Accepted with Revision                                 2
                                                                          County of Chester              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
23                                       Savannah, GA                                   N/A    Accepted with Revision                                 1
                                                                                                         and Addendum
24                                       Anchorage, AK                                  N/A              Non-Accepted           Review                1
                                                                                                                         Suspended due
                                                                                                                          to FR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
25                                       Seattle, WA                        Seattle Housing                  Accepted                                 2
                                                                                  Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: August 4, 2017 (1 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
26                                       Mobile, AL                                     N/A    Accepted with Revision                                 1
                                                                                                         and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
27                                       Nashville, TN              Metropolitan Development             Non-Accepted           Review                2
                                                                     and Housing Agency, TN                              Suspended due
                                                                                                                          to FR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: October 4, 2017 (19 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
28                                       Burlington, VT                  Burlington Housing                  Accepted                                 3
                                                                        Authority; Winooski
                                                                          Housing Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
29                                       Somerville, MA                                 N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
30                                       Delaware County, PA           Housing Authority of    Accepted with Revision                                 2
                                                                            Delaware County              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
31                                       Sandy Springs, GA                              N/A              Non-Accepted           Second                1
                                                                                                                            Submission
                                                                                                                        pending at time
                                                                                                                          of FR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
32                                       Clayton County, GA                             N/A              Non-Accepted           Second                1
                                                                                                                            Submission
                                                                                                                        pending at time
                                                                                                                          of FR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
33                                       Greenville, NC                                 N/A              Non-Accepted           Second                1
                                                                                                                            Submission
                                                                                                                        pending at time
                                                                                                                          of FR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
34                                       Horry County, SC HOME         Housing Authority of    Accepted with Revision                                 3
                                          Consortium                        Conway; Housing              and Addendum
                                                                        Authority of Myrtle
                                                                                      Beach
--------------------------------------------------------------------------------------------------------------------------------------------------------
35                                       Winston-Salem HOME            Housing Authority of    Accepted with Revision                                 2
                                          Consortium, NC                      Winston-Salem              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
36                                       Washtenaw Urban County,          Ann Arbor Housing                  Accepted                                 2
                                          MI                                     Commission
--------------------------------------------------------------------------------------------------------------------------------------------------------
37                                       Santa Fe, NM                                   N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
38                                       Springdale, AR                                 N/A    Accepted with Revision                                 1
                                                                                                         and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
39                                       Albuquerque, NM                Albuquerque Housing    Accepted with Revision                                 3
                                                                      Authority; Rio Rancho              and Addendum
--------------------------------------------------------------------------------------------------------------------------------------------------------
40                                       Jefferson County HOME                          N/A                  Accepted                                 1
                                          Consortium, MO
--------------------------------------------------------------------------------------------------------------------------------------------------------
41                                       Hidalgo County Regional               Non-Accepted         Second Submission               19
                                          AFHDonna Housing                                       pending at time ofFR
                                          Authority; Edcouch                                                   Notice
                                          Housing Authority;
                                          Edinburg; Edinburg
                                          Housing Authority; Elsa
                                          Housing Authority;
                                          Hidalgo County Housing
                                          Authority; Hidalgo
                                          Housing Authority; La
                                          Joya Housing Authority;
                                          McAllen; McAllen Housing
                                          Authority; Mercedes
                                          Housing Authority;
                                          Mission; Mission Housing
                                          Authority; Pharr; Pharr
                                          Housing Authority; San
                                          Juan Housing Authority;
                                          Weslaco Housing
                                          Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
42                                       Pomona, CA                 Housing Authority of the             Non-Accepted      Accepted on                2
                                                                             City of Pomona                                     Second
                                                                                                                            Submission
--------------------------------------------------------------------------------------------------------------------------------------------------------
43                                       San Mateo County HOME      Daly City; Redwood City;   Accepted with Revision                                 6
                                          Consortium, CA            Housing Authority of the             and Addendum
                                                                       County of San Mateo;
                                                                        South San Francisco
                                                                          Housing Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
44                                       Los Angeles County, CA       Housing Authority of Los           Non-Accepted           Second                2
                                                                             Angeles County                                 Submission
                                                                                                                        pending at time
                                                                                                                           ofFR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
45                                       Moreno Valley, CA                              N/A              Non-Accepted           Second                1
                                                                                                                            Submission
                                                                                                                        pending at time
                                                                                                                           ofFR Notice
--------------------------------------------------------------------------------------------------------------------------------------------------------
46                                       Bellingham, WA                                 N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: November 4, 2017 (2 AFHs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
47                                       Ithaca, NY                                     N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
48                                       Lawrence, KS                                      Lawrence-Douglas CAccepted                                 2
                                                                          Housing Authority
--------------------------------------------------------------------------------------------------------------------------------------------------------
AFH Due Date: April 6, 2022 (1 AFH--Submitted Early)
--------------------------------------------------------------------------------------------------------------------------------------------------------
49                                       Rogers, AR                                     N/A                  Accepted                                 1
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          manufactured housing
    Question. The Department published in the Federal Register a 
request for comments on regulatory review of Manufactured Housing 
rules. I have heard concerns from stakeholders in Vermont that HUD's 
regulations for the installation of manufactured homes and particularly 
the foundation installation requirements are unduly onerous.
    What did HUD learn from the comments submitted?
    Answer. HUD has received 462 comments in response to the Federal 
Register notice regarding regulatory review of Manufactured Housing 
rules. Of this total, there were 156 unique comments, which HUD is 
currently reviewing. The comments received have underscored the 
critical and essential role that HUD plays in balancing the protections 
for consumers with the burdens and impacts regulatory compliance and 
enforcement has on the industry of this nationally preemptive building 
oversight program. HUD will be working with the Manufactured Housing 
Consensus Committee to further review all comments received and address 
the comments through the consensus and recommendations process required 
by the National Manufactured Housing Construction and Safety Standards 
Act of 1974 as amended by the Manufactured Housing Improvement Act of 
2000.
    Question. What improvements, if any, could be made to HUD 
regulations for the installation of manufactured homes and particularly 
the foundation installation requirements?
    Answer. Comments were received from the public after HUD's 
publication of the proposed Interpretative Bulletin (for Model 
Manufactured Home Installation Standards Foundation Requirements in 
Freezing Temperature Areas) as well as in response to HUD's request for 
comment on reducing regulatory burdens. HUD will work with the 
Manufactured Housing Consensus Committee to assess all comments 
received and address and balance the concerns of the public including 
all segments of the industry through the consensus and recommendations 
process required by the National Manufactured Housing Construction and 
Safety Standards Act of 1974 as amended by the Manufactured Housing 
Improvement Act of 2000.

                          SUBCOMMITTEE RECESS

    Senator Collins. I want to thank the staff for their hard 
work as well. And this hearing is now adjourned.
    [Whereupon, at 3:50 p.m., Wednesday, April 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the chair.]
</pre></body></html>
